<html>
<title> - H.R. 3470, H.R. 3908 and H.R. 4044</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                  H.R. 3470, H.R. 3908 and H.R. 4044
=======================================================================


                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 11, 2002

                               __________

                           Serial No. 107-103

                               __________

           Printed for the use of the Committee on Resources









 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov













                           U.S. GOVERNMENT PRINTING OFFICE
78-661                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel













       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 11, 2002...................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Prepared statement on H.R. 3470, 
      H.R. 4044 and H.R. 3908....................................     1
     McIntyre, Hon. Mike, a Representative in Congress from the 
      State of North Carolina....................................     3
        Prepared statement on H.R. 3470..........................     4
    Underwood, Hon. Robert A., a Delegate to Congress from Guam, 
      Prepared statement of......................................     2

Statement of Witnesses:
    Berry, John, Executive Director, National Fish and Wildlife 
      Foundation.................................................    36
        Prepared statement on H.R. 3908..........................    38
    Satrom, Joseph A., Director of Land Protection Programs, 
      Great Plains Regional Office, Ducks Unlimited..............    33
        Prepared statement on H.R. 3908..........................    35
    Short, Cathleen, Assistant Director for Fisheries and Habitat 
      Conservation, Fish and Wildlife Service, U.S. Department of 
      the Interior...............................................     6
        Prepared statement on H.R. 3470, H.R. 4044, and H.R. 3908     7
    Sullivan, Kevin, Maryland State Director, Wildlife Services, 
      U.S. Department of Agriculture.............................    19
        Prepared statement on H.R. 4044..........................    21
    Taylor, Gary J., Legislative Director, International 
      Association of Fish and Wildlife Agencies..................    40
        Prepared statement on H.R. 3908..........................    42
    Thompson, Edith R., Exotic/Invasive Species Coordinator, 
      Wildlife and Heritage Service, Maryland Department of 
      Natural Resources..........................................    15
        Prepared statement on H.R. 4044..........................    17

Additional materials supplied:
    Plumart, Perry, Director of Government Relations, Audubon 
      Society, Statement submitted for the record on H.R. 4044...    47















LEGISLATIVE HEARING ON H.R. 3470, TO CLARIFY THE BOUNDARIES OF COASTAL 
BARRIER RESOURCES SYSTEM CAPE FEAR UNIT NC07P; H.R. 4044, TO AUTHORIZE 
  THE SECRETARY OF THE INTERIOR TO PROVIDE ASSISTANCE TO THE STATE OF 
   MARYLAND FOR IMPLEMENTATION OF A PROGRAM TO ERADICATE NUTRIA AND 
RESTORE MARSHLAND DAMAGED BY NUTRIA; AND H.R. 3908, TO REAUTHORIZE THE 
   NORTH AMERICAN WETLANDS CONSERVATION ACT, AND FOR OTHER PURPOSES 

                              ----------                              


                        Thursday, April 11, 2002
                     U.S. House of Representatives
      Subcommittee on Fisheries Conservation, Wildlife and Oceans
                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest, [Chairman of the Subcommittee] presiding.
    Mr. Gilchrest. The Subcommittee will come to order. We have 
three bills that we will be hearing from witnesses on this 
morning.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
on Fisheries Conservation, Wildlife and Oceans, on H.R. 3470, H.R. 3908 
                             and H.R. 4044

    Good morning. Today, the Subcommittee will conduct a hearing on 
three legislative proposals that address the diverse issues of nutria 
eradication, wetlands conservation and coastal barrier protection.
    The first bill, H.R. 4044, a measure I introduced to eradicate 
nutria and restore essential marshland habitat that has been consumed 
by this unwanted invasive species. I have worked diligently to obtain 
the funding needed to complete the necessary studies and to develop an 
effective strategy to deal with the growing population of nutria.
    It is now time to shift gears from research to eradication and move 
forward to stop the destruction of these fragile wetlands on the 
Delmarva Peninsula. The three year study supported by the legislation 
we seek to reauthorize is complete. It is time for action and it's time 
to eradicate nutria whose insatiable appetite for our wetlands 
ecosystem knows no bounds.
    The second bill, H.R. 3908, was introduced by Chairman Jim Hansen 
to extend the authorization of appropriations For the North American 
Wetlands Conservation Act. Since its enactment in 1989, more than 33 
million acres of wetlands and associated upland habitats have been 
protected, restored and enhanced in Canada, Mexico and the United 
States. These 975 projects have been extremely beneficial to millions 
of migratory waterfowl and other avian species.
    In my own State of Maryland, money from this fund has supported the 
Chesapeake Bay initiative and its ongoing efforts to restore essential 
riparian and upland buffer lands and wetland habitat.
    Finally, we will hear testimony on H.R. 3470, a bill introduced by 
Congressman Mike McIntyre of North Carolina to make a so-called 
technical correction to the coastal barrier resource system.
    During our hearing, it is my hope that our witnesses will give us 
their candid views on the need for this legislation, whether the 
authorization levels are appropriate and any proposed changes or 
improvements that they feel are necessary.
                                 ______
                                 
    Mr. Gilchrest. The first one is Coastal Barrier Resources. 
And our first witness is Mr. McIntyre. And thank you for coming 
this morning, Mike.
    Mr. McIntyre. Thank you, Mr. Chairman.
    Mr. Gilchrest. We appreciate it. And we would like to hear 
your testimony and explanation so that we can incorporate that 
information into our understanding about how to continue to 
protect the very valuable but vulnerable and sensitive resource 
of our coastal barriers, that have been basically, depending on 
your point of view, over-developed, the coastal areas of the 
United States.
    And there has been some confusion about lines drawn over 
the years as to where the property is supposed to be, and who 
is supposed to get flood insurance to rebuild after the 
inevitable storm comes through and knocks their house down. But 
we want to do what is right here this morning. And we 
appreciate your efforts in this situation on behalf of your 
constituents.
    Mr. McIntyre. Thank you, Mr. Chairman.
    Mr. Gilchrest. I would just like to see--just a second--if 
Mr. Underwood wants to make a comment.
    Mr. Underwood. No, Mr. Chairman. In the interests of time, 
we will let Mr. McIntyre testify.
    [The prepared statement of Mr. Underwood follows:]

Statement of The Honorable Robert A. Underwood, a Delegate to Congress 
                               from Guam

    Thank you, Mr. Chairman. I appreciate that you have moved ahead 
energetically this morning to take up a busy spring-time legislative 
agenda. There is still much work to be done.
    It often has been said that it is always best to make sure you have 
finished speaking before your audience has finished listening. So, with 
that bit of wisdom in mind, and in recognition of the time constraints 
that my friend and colleague, Mr. McIntyre, is under this morning, my 
opening remarks will be brief.
    First, I am pleased that Mr. McIntyre's coastal barrier bill, H.R. 
3470, has been included on this morning's agenda. As you know, Mr. 
Chairman, I believe that it is absolutely critical for this 
subcommittee to consider with the utmost scrutiny all legislation that 
would propose to alter the boundaries of any unit or otherwise 
protected area within the Coastal Barrier Resources System.
    I make no exception in this case. However, I am impressed by the 
patient diligence through which Mr. McIntyre has worked cooperatively 
with the U.S. Fish and Wildlife Service and local stakeholders to 
fashion a responsible proposal to address what appears to be legitimate 
errors in the original boundaries of the Cape Fear unit. We shall see.
    I am also pleased that you have decided to act quickly in 
scheduling a hearing on H.R. 3908, Chairman Hansen's legislation that 
would reauthorize the North American Wetlands Conservation Act--more 
popularly referred to by its acronym, ``NAWCA.''
    In its relatively short history, NAWCA has proven itself to be one 
of our Nation's most popular and cost-effective wetland restoration and 
conservation programs. Indeed, NAWCA's success in leveraging non-
Federal funds to support conservation partnerships is something we 
should try to emulate in other Fish and Wildlife Service grant 
programs.
    While I know of no one who is suggesting that NAWCA should not be 
reauthorized, I do realize that minor adjustments might be advisable to 
fine tune the Act and better address contemporary needs in the field. I 
am hopeful that our witnesses will be able to provide some guidance in 
this respect.
    And of course, Mr. Chairman, I look forward to learning more about 
your legislation, H.R. 4044, to address the nutria problem in Eastern 
Maryland, and I thank you for your support as we move ahead with other 
important invasive species legislation this Congress. Thank you.
                                 ______
                                 
    Mr. Gilchrest. All right, Mr. McIntyre. Thank you.

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. McIntyre. Thank you very much. Thank you for 
understanding our time constraints we have this morning.
    Chairman Gilchrest, Ranking Member Underwood, and members 
of the Subcommittee, thank you for holding this hearing on H.R. 
3470, which is a bill to clarify the boundaries of Cape Fear 
Unit NC07P, an otherwise protected area, or OPA, designed by 
the Coastal Barrier Improvement Act of 1990.
    As the sponsor of this legislation and a strong supporter 
of the policies the Chairman has just enumerated under the 
Coastal Barrier Resources Act, I would like to speak to you in 
support of this bill.
    As you know, Congress enacted the Coastal Barrier Resources 
Act in an effort to address problems caused by coastal barrier 
development. As you know, since CBRA restricts Federal 
expenditures and financial assistance, including Federal flood 
insurance, for developmental coastal barriers, we wanted to 
make sure we do continue to honor the spirit and the letter of 
the law.
    In addition, the Coastal Barrier Improvement Act added 
otherwise protected areas, or OPAs, to the system; these being 
the undeveloped coastal barriers within the boundaries of lands 
reserved for conservation purposes, as you know, for areas such 
as wildlife refuges and parks. And while they were not made 
part of the Coastal Barrier Resources System, Congress forbade 
the issuance of new flood insurance or any Federal development 
related assistance in OPAs.
    Now, here is what has happened. The Fish and Wildlife 
Service has now advised me that the maps of the area known as 
NC07P are inaccurate. The errors in these maps therefore deny 
flood insurance to certain property owners on Bald Head Island, 
North Carolina. These errors result from problems inherent in 
translating the lines drawn on the large-scale maps for 
designations into precise, on-the-ground property lines.
    This problem, however, is fixable, or correctable, due to 
improved technology that is available to Fish and Wildlife 
Service. The mistakes that led to the Bald Head Island 
properties being placed within the outer boundary of NC07P were 
clearly not intended by Congress when the maps were created.
    Now, while correcting the lines around Bald Head Island, 
with the Fish and Wildlife Service, working with the Department 
of Defense, the State of North Carolina, and the local 
communities contained within NC07P, the great news is they have 
identified 2,471 acres that are eligible for addition to NC07P. 
Therefore, when the corrected area of only 109 acres is removed 
from the 2,471 acres that we would add, the net gain is 2,362 
acres for protected area. In addition, while redrawing the 
boundaries, we made every possible attempt to minimize boundary 
changes to the maximum extent practicable, to protect the 
integrity of the OPA.
    As you know, Mr. Chairman and Mr. Ranking Member and 
Subcommittee members, only an act of Congress may revise CBRA 
boundaries. Statute does not provide authority for an 
administrative correction of the errors that have been found. 
In the past, Congress has enacted legislation in several 
instances where the stated purpose was to remove private 
property from the mapped outer boundary of an otherwise 
protected area.
    Furthermore, the technical changes called for in this 
legislation which I have before you today have the added 
benefit not only of making some technical corrections, but 
vastly increasing the overall acreage that would be protected 
under the new map, to the tune of 2,362 additional acres.
    As hurricane season approaches, there are landowners on 
Bald Head Island who, by no fault of their own, will be left 
unprotected if a storm hits the lower Cape Fear region. My 
first 4 years in office, we had six hurricanes strike Cape Fear 
and make landfall in North Carolina in this very area. 
Therefore, this matter does require immediate attention. And I 
appreciate your prompt consideration of this important bill.
    Thank you so very much for allowing me to testify on this 
legislation. I think it has very many benefits: not only 
technical corrections that will allow property owners the 
protection that they deserve, through no error of their own; 
but, as Fish and Wildlife has stated and as we have found and 
have worked on with the state and the local communities and the 
Department of Defense, we have the wonderful benefit of adding 
over 2,362 acres to the lines. I urge the Subcommittee to 
report this bill to the Full Committee as soon as possible. And 
thank you for your time.**
    [The prepared statement of Mr. McIntyre follows:]

Statement of The Honorable Mike McIntyre, a Representative in Congress 
             from the State of North Carolina, on H.R. 3470

    Chairman Gilchrest, Ranking Member Underwood and Members of the 
Subcommittee. Thank you for holding a hearing on H.R. 3470 a bill to 
clarify the boundaries of Cape Fear Unit NC07P an ``otherwise protected 
area'' (OPA) designated by the Coastal Barrier Improvement Act of 1990. 
As the sponsor of this legislation, I would like to speak to you in 
support of the bill.
    Congress enacted the Coastal Barrier Resources Act (CBRA) in an 
effort to address problems caused by coastal barrier development. As 
you know, CBRA restricts Federal expenditures and financial assistance, 
including Federal flood insurance, for development on coastal barriers 
in the CBRAs. In addition, the Coastal Barrier Improvement Act of 1990 
added ``otherwise protected areas'' to the System. OPAs are undeveloped 
coastal barriers within the boundaries of lands reserved for 
conservation purposes such as wildlife refuges and parks. While they 
were not made part of the Coastal Barrier Resources System, the 
Congress forbade the issuance of new flood insurance or any Federal 
development-related assistance in OPAs.
    The Fish and Wildlife Service has now advised me that the maps of 
the area known as NC07P are inaccurate. The errors in the maps deny 
flood insurance to certain property owners on Bald Head Island, North 
Carolina. The errors result from the problems inherent in translating 
lines drawn on the large-scale maps used for designations into precise, 
on-the-ground property lines. However, this problem is now fixable due 
to improved technology available to the Fish and Wildlife Service. The 
mistakes that led to the Bald Head Island properties being placed 
within the outer boundary of NC07P was clearly not intended by Congress 
when maps were created.
    While correcting the lines around Bald Head Island, the Fish and 
Wild Life Service working with the State of North Carolina and the 
local communities contained within NC07P identified 2,471 acres that 
are eligible for addition to NC07P. Therefore, when the 109 acres are 
removed from the 2,471 that would be added, the net gain to NC07P is 
2,362 acres.
    As you know, only any act of Congress may revise CBRA boundaries. 
The statute does not provide authority for an administrative correction 
of such an error. In the past, Congress has enacted legislation in 
several instances where the stated purpose was to remove private 
property from the mapped outer boundary of an otherwise protected area. 
Furthermore, the technical changes called for in my legislation have 
the added benefit of vastly increasing the overall acreage in the map. 
As hurricane season approaches, there are landowners on Bald Head 
Island who, by no fault of there own, will be left unprotected if a 
storm hits the lower Cape Fear region. Therefore, this matter requires 
immediate attention, and I appreciate your prompt consideration of this 
important bill.
    Once again, thank you for allowing me to testify on my legislation, 
and I urge the subcommittee to report this bill to the full Committee 
as soon as possible. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. McIntyre.
    Mr. McIntyre. Thank you, sir.
    Mr. Gilchrest. Just one question. Do you have any idea, of 
the 2,400 acres that are added, how much of that is aquatic 
habitat, and how much of that is upland habitat?
    Mr. McIntyre. Excuse me just one moment.
    [Pause.]
    Mr. McIntyre. I would defer to Fish and Wildlife, who are 
ready to testify on that.
    Mr. Gilchrest. All right.
    Mr. McIntyre. I will leave that part to the experts.
    Mr. Gilchrest. We will do that.
    Mr. McIntyre. OK.
    Mr. Gilchrest. Thank you very much, Mike.
    Mr. McIntyre. Yes, sir.
    Mr. Gilchrest. Mr. Underwood, any questions?
    Mr. Underwood. Just quickly, Mike, how many private 
residences were removed from the existing boundaries of the 
otherwise private protected area? And of the land areas that 
are now incorporated into the OPAs, was all of this land 
publicly held, or was there some private land that had been 
reserved for conservation purposes?
    Mr. McIntyre. Just one moment.
    [Pause.]
    Mr. McIntyre. Fish and Wildlife has informed us, 20 acres 
of the currently undeveloped land could be opened to 
development. We do not know the exact number of properties that 
would be removed. We will be happy to get back with you on 
that.
    Mr. Underwood. OK. Thank you. And thank you for your 
testimony, and on an excellent real technical correction, I 
might add.
    Mr. McIntyre. Thank you, sir.
    Mr. Gilchrest. Thanks, Mike.
    Mr. McIntyre. Yes, sir.
    Mr. Gilchrest. Have a good day.
    Mr. McIntyre. Thank you to the Committee. Thank you.
    Mr. Gilchrest. The next witness is Cathleen Short, 
Assistant Director for Fisheries and Habitat Conservation, U.S. 
Cape Fish and Wildlife Service. Welcome, Ms. Short. How is your 
career going?
    Ms. Short. It is very busy, Mr. Chairman.
    Mr. Gilchrest. Very busy.
    Ms. Short. We hope it is going well.
    Mr. Gilchrest. We wish you well.
    Ms. Short. Thank you very much.
    Mr. Gilchrest. You may begin, ma'am.

 STATEMENT OF CATHLEEN SHORT, ASSISTANT DIRECTOR FOR FISHERIES 
   AND HABITAT CONSERVATION, U.S. FISH AND WILDLIFE SERVICE; 
 ACCOMPANIED BY PAUL SOUZA, COASTAL BARRIERS COORDINATOR, U.S. 
                   FISH AND WILDLIFE SERVICE

    Ms. Short. Good morning, Mr. Chairman. I am Cathleen Short. 
I am the Assistant Director for Fisheries and Habitat 
Conservation for the U.S. Fish and Wildlife Service. I very 
much appreciate the opportunity this morning to testify on the 
bills being considered.
    I would like to begin with H.R. 3908. We support this bill 
without reservation, and greatly appreciate this Committee's 
interest in the conservation of wetlands and associated 
habitats. Since its initial passage, we have witnessed 
remarkable achievements in conservation through NAWCA. In 
Fiscal Years 1991 through 2002, over 8 million acres of 
wetlands and associated uplands were protected or restored in 
the United States and Canada, and roughly 450,000 acres were 
restored in Mexico.
    Each Federal dollar appropriated for NAWCA has leveraged 
nearly $3 from outside sources. Over the past 2 years alone, an 
annual average of $75 million has been available from all 
sources; an amount that clearly meets many of our high-priority 
habitat needs, but certainly not all. Each year, there are 
projects with significant non-Federal support that we are 
unable to fund. We appreciate Congress' continued support, and 
look forward to future successes.
    I would like to turn now to H.R. 3470, a bill to clarify 
the boundaries of the Cape Fear Unit within the Coastal Barrier 
Resources System. Because of the imprecise tools that were 
available when Otherwise Protected Areas were first mapped, we 
have found their boundaries often do not mirror the property 
boundaries of the protected lands they were meant to follow.
    When these OPAs come to our attention, we work closely with 
the interested land owners, local and state officials, and land 
managers, to correctly map the boundaries, with the high-
quality mapping tools that are now available to us.
    H.R. 3470 addresses one of these cases. We have worked with 
our partners, including the local land owners and local 
officials, to produce draft maps that more accurately depict 
the protected lands in the area. And for this reason, the 
Department of the Interior supports H.R. 3470.
    Last, I would like to address H.R. 4044. The Service 
commends the Chairman and the Committee for recognizing the 
significant threat posed by nutria to the Chesapeake Bay 
ecosystem and to the economy and the culture of the Bay area 
communities. We are encouraged by H.R. 4044 and other bills 
that have been introduced in Congress to combat invasive 
species. However, we would need to identify more clearly how 
H.R. 4044 would be funded, within the context of the current 
budget climate and the priorities that are reflected in the 
President's budget.
    The Service joined forces with the State of Maryland, other 
Federal agencies like Wildlife Services, and partners in the 
private sector, to identify appropriate methods for controlling 
nutria and restoring the degraded marsh habitat. The end result 
was a 3-year pilot program approved by Congress. The 
partnership successfully leveraged commitments of over $1-1/2 
million in non-Federal funds and services to support the 
initiative.
    The Service contributed $500,000 in Fiscal Years 2000 and 
2001 for the initiation and implementation of that pilot study. 
An earmark for an additional $550,000 for the nutria project 
was included last year. Because it is Administration policy to 
eliminate all unrequested congressional adds to the budget, the 
increase was not included in the President's Fiscal Year 2003 
budget request.
    The Service plans to continue nutria project funding 
amounts within the priorities identified in the President's 
budget. And we are also examining additional opportunities to 
fund the continuation of the nutria eradication program in 
Maryland, through partnerships and through cost-share programs.
    Mr. Chairman, this concludes my prepared statement, but I 
will be pleased to respond to any questions that you and the 
Committee may have.
    [The prepared statement of Ms. Short follows:]

  Statement of Cathleen Short, Assistant Director, Fish and Wildlife 
 Service, U.S. Department of the Interior, on H.R. 3908, H.R. 3470 and 
                               H.R. 4044

    Good morning, Mr. Chairman. I am Cathleen Short, Assistant Director 
for Fisheries and Habitat Conservation with the U.S. Fish and Wildlife 
Service. I appreciate the opportunity to testify on the three fish and 
wildlife bills being considered this morning.
H.R. 3980, the ``North American Wetlands Conservation Act''
    We greatly appreciate the Committee's interest in conservation of 
wetlands and associated habitats, and for recognizing the tremendous 
value and success of the North American Wetlands Conservation Act 
(NAWCA), originally passed in 1989. Over this past decade, we have 
witnessed remarkable achievements in conservation through this landmark 
legislation, which promotes strong partnerships to protect and restore 
habitat for migratory birds, endangered species, and a host of other 
fauna and flora. These partnerships are established with world renowned 
conservation organizations, State fish and game agencies, and numerous 
small grass- roots organizations focused in small geographic areas.
    NAWCA provides matching grants to organizations and individuals who 
have developed partnerships to carry out wetlands conservation projects 
in the United States, Canada, and Mexico. NAWCA was passed, in part, to 
support activities under the North American Waterfowl Management Plan, 
an international partnership agreement that provides a comprehensive 
strategy for the long-term protection of wetlands and associated 
uplands habitats needed by waterfowl and other migratory birds in North 
America, enjoyed by more than 65 million Americans annually. NAWCA is 
also widely recognized for its support of other bird conservation 
plans, including Partners in Flight, North American Waterbird 
Conservation Plan, and U.S. Shorebird Conservation Plan, all of which 
emphasize the importance of habitat conservation.
    One of the unique features of NAWCA that makes it so strong is its 
creation of the North American Wetlands Conservation Council, a group 
that reviews and recommends projects for approval by the Migratory Bird 
Conservation Commission. The strength of the Council comes from its 
diverse membership, composed of the Director of the Service, Director 
of the National Fish & Wildlife Foundation, four Directors of State 
Fish & Games agencies representing each of the four migratory bird 
flyways, and three charitable, non-profit organizations actively 
involved in habitat conservation. The Council has been widely viewed as 
a leader in international habitat conservation activities through their 
implementation of NAWCA.
    Permit me to summarize briefly an important message about NAWCA and 
its funding history. Congress has appropriated funds to conduct NAWCA 
activities since 1991, beginning with a modest $15 million. In 
contrast, in Fiscal Year 2001, Congress appropriated $40 million, and 
in Fiscal Year 2002, Congress appropriated $43.50 million. For Fiscal 
Year 2003, the President has requested $43.56 million, showing a 
continuing support for this essential conservation tool.
    Additional funding for NAWCA comes from moneys received from fines, 
penalties, and forfeitures under the Migratory Bird Treaty Act of 1918, 
and from interest accrued on the fund established under the Federal Aid 
in Wildlife Restoration Act of 1937. Amendments to the Federal Aid in 
Sport Fish Restoration Act of 1950 directed a portion of the moneys 
collected from Federal fuel excise taxes on small gasoline engines be 
allocated for use under NAWCA for coastal ecosystem projects. Over the 
past 2 years alone, an annual average of $75 million has been available 
from all sources, an amount that meets many, but not all, identified 
needs. During Fiscal Years 2000 and 2001, 237 projects were funded with 
$114.8 million in NAWCA funds with $404.7 million in partner support, 
an additional 135 proposals requesting $31.7 million in NAWCA funds 
were unable to be funded due to higher priorities. These unfunded 
proposals had over $91.4 million of committed partner support, and can 
be considered for future disbursements. These statistics are shared to 
validate the value of NAWCA in terms of continued high demand while 
also emphasizing the challenge in meeting the habitat needs for our 
Nation's migratory bird and wildlife resources.
    I would also like to highlight a few notable statistics. From 
Fiscal Years 1991 through 2002, more than 5,700 individual partners 
were involved in 881 NAWCA Standard Grant program projects, which can 
be eligible for up to $1 million in grant monies. More than $460 
million has been invested through the Act; total partner contributions 
have amounted to more than $1.3 billion. Approximately 8.3 million 
acres of wetlands and associated uplands have been protected or 
restored in the United States and Canada, and more than 444,000 acres 
in Mexico. Under the Small Grants program, which offers up to $50,000 
to partners in the United States, more than 300 partners have been 
involved in 161 projects with approximately $6.6 million in 
contributions throughout the program's history. Partners of the U.S. 
Fish and Wildlife Service (Service) have contributed $50 million in 
support of this program. Each Federal dollar provided by the NAWCA has 
leverage nearly three dollars ($2.94) from outside sources. We believe 
that is a significant, and wise, Federal investment.
    In 1998, Congress reauthorized appropriations for the Act through 
Fiscal Year 2003, reflecting Congress' and the public's support of 
NAWCA's goals. In 2001, Congress raised the appropriation authorization 
to $50 million. H.R. 3908 will maintain the authorized funding level at 
$50 million and will extend authorization for the Act through 2007. We 
support this bill without reservation and look forward to maintaining 
oversight of legislation that carries an impressive history of 
accomplishment for both the American people and the wildlife it 
treasures.
H.R. 3470, a bill to clarify the boundaries of Coastal Barrier 
        Resources System Cape Fear Unit NC-07P.
    Mr. Chairman, in a moment I will discuss the Service's support of 
H.R. 3470, a bill directing the Secretary of the Interior to make 
technical corrections to NC-07P, an area established by the Coastal 
Barrier Improvement Act of 1990. Before doing so, I will briefly 
describe the Coastal Barrier Resources Act and the Service's role in 
its implementation.
    Coastal barriers perform many functions that strengthen our economy 
and promote a healthy environment. They often help provide the back-bay 
water conditions necessary to support productive and lucrative 
fisheries'the world class oyster beds of Apalachicola, Florida, are one 
example. In addition, these migrating strips of sand provide essential 
habitat for migratory birds and many at-risk animals such as piping 
plovers and sea turtles, which spend a portion of every year on them. 
Coastal barriers are also popular vacation destinations and a boon to 
local economies; their beautiful beaches, unique dune and wetland 
environments, and biological diversity attract millions of visitors 
every year. Hilton Head, South Carolina, North Carolina's Outer Banks, 
and Galveston, Texas, are a few examples of popular coastal barrier 
vacation sites.
    With all of their amenities, it is no surprise that the demand for 
property on coastal barriers is high. Developing them, however, is a 
risky endeavor. Commonly found along the Atlantic and Gulf coasts, 
coastal barriers are the first land forms that storms strike; they must 
bear the full force of storm surges and hurricane winds. The constant 
pounding of waves keeps coastal barriers in a state of flux, losing 
sand in some places and gaining it in others. In addition, chronic 
erosion is a real and increasing problem in many places, rendering 
development that appeared safe years ago vulnerable to storms today.
    Recognizing the risk of developing coastal barriers and the value 
of coastal barriers to local economies and natural resources, Congress 
adopted and President Reagan signed into law the Coastal Barrier 
Resources Act (CBRA) of 1982. The Act is the essence of free-market 
natural resource conservation; it in no way regulates how people can 
develop their land, but transfers the full cost from Federal taxpayers 
to the individuals who choose to build. People can develop, but 
taxpayers won't pay. By limiting Federal subsidies, such as flood 
insurance, and letting the market work, the Act seeks to conserve 
coastal habitat, keep people out of harm's way, and reduce ``wasteful'' 
Federal spending to develop--and rebuild again and again--places where 
storms often strike and chronic erosion is common.
    To make this vision work, the Act identified undeveloped coastal 
barrier units along the Atlantic and Gulf coasts and included them in 
the John H. Chafee Coastal Barrier Resources System--named after the 
late Senator who was instrumental in shaping the law and a life-long 
champion of natural resource conservation. As authorized by Congress, 
the Secretary of the Interior is responsible for (1) maintaining the 
official maps of the System, (2) conducting a review of the maps every 
five years to reflect natural changes, (3) consulting with Federal 
agencies that propose spending funds within the System, and (4) 
ensuring Federal Flood Insurance Rate Maps accurately depict the 
official boundaries.
    In 1990, Congress passed the Coastal Barrier Improvement Act. In 
addition to expanding the System, the 1990 Act designated ``otherwise 
protected areas,'' or OPAs. Units of the System primarily include 
private lands that are subject to a wide array of restrictions on 
Federal spending, from flood insurance to subsidies for roads, potable 
water, and other types of infrastructure. OPAs, on the other hand, add 
one more layer of protection to coastal barrier park lands, wildlife 
refuges, bird sanctuaries, and other areas held for some conservation 
purpose. In particular, Federal flood insurance is prohibited in OPAs 
to discourage the development of privately owned inholdings.
    Because of the imprecise tools available when OPAs were first 
mapped, we have found their boundaries often do not mirror the actual 
property boundaries of the protected lands they were meant to follow. 
They sometimes include private lands that are not inholdings, and the 
owners of these lands cannot obtain Federal flood insurance for their 
homes. When these OPAs come to our attention, we work closely with 
interested land owners, local and State officials, and land managers to 
correctly map the boundaries with the high quality tools now available. 
We then provide the updated information to Congress for consideration.
    NC-07P, an OPA around Cape Fear, is one of these cases. We worked 
with our partners, including local landowners and officials from the 
Village of Bald Head Island, Bald Head Island Land Conservancy, North 
Carolina Department of Natural Resources, and Sunny Point Military 
Installation, to produce draft maps that accurately depict protected 
lands in the area. The maps would exclude about 110 acres of land, but 
they also would add about 2,470 acres of nearby protected lands that we 
identified during our research. In addition, we recently learned that a 
portion of the 110 acres is managed by the North Carolina Department of 
Cultural Resources. We are working closely with them to modify the 
draft maps accordingly, which could reduce the amount of land removed 
from the OPA by as much as 65 acres. We will keep you apprised of our 
progress.
    H.R. 3470 would adopt new maps of NC-07P that pinpoint the boundary 
of conservation lands and significantly expand the OPA. The Department 
believes that Congress did not intend to include private lands outside 
of the border of the conservation lands in the OPA. Because of this, 
and the fact that the new maps were prepared through a collaborative 
process involving all of the local land owners, the Department supports 
H.R. 3470.
    Mr. Chairman, we will continue to work with Congress to achieve 
CBRA's objectives and improve the accuracy of OPA boundaries. Our work 
on OPAs is one part of our broader goal to modernize all CBRA maps and 
provide our partners with better information. We believe this will help 
achieve all of three of CBRA's intentions: saving taxpayers' money, 
keeping people out of the deadly path of storm surge, and protecting 
valuable habitat for fish and wildlife.
H.R. 4044, a bill to authorize the Secretary of the Interior to provide 
        assistance to the State of Maryland for implementation of a 
        program to eradicate nutria and restore marshland damaged by 
        nutria.
    The Service commends the Chairman and the Committee for recognizing 
the significant threat posed by nutria to the Chesapeake Bay ecosystem 
and to the economy and culture of the Bay area communities. The Service 
has a long history of commitment to protecting and enhancing the fish 
and wildlife resources of the Bay area through our cooperative efforts 
with the States, private landowners, and through the habitat management 
work conducted on National Wildlife Refuges such as Blackwater National 
Wildlife Refuge. We recognize that Federal land management agencies 
like the Service play a key role in managing invasive species, 
particularly at the local level where communities are struggling to 
find support for protection of the environment, sustainable 
agriculture, and economic stability.
    Nutria are an exotic invasive rodent, native to South America, that 
have been introduced in 22 states nationwide, and affect over 1 million 
acres of the National Wildlife Refuge System (NWRS). Among areas with 
high nutria populations is the lower Eastern Shore of Maryland, 
including Blackwater National Wildlife Refuge. Blackwater has lost over 
7,000 acres of marsh since 1933, and the rate of marsh loss has 
accelerated in recent years to approximately 200 acres per year. 
Although there are many contributing factors (e.g., sea level rise, 
land subsidence), nutria are a catalyst of marsh loss because they 
forage on the below-ground portions of marsh plants. This activity 
compromises the integrity of the marsh root mat, facilitating erosion 
and leading to permanent marsh loss.
    Nutria are one of thousands of invasive species impacting the NWRS, 
as well as other Federal, State, and private lands. The degradation of 
native fish and wildlife habitats and the functional disruption of 
entire ecosystems due to invasive species is overwhelming. Invasive 
species impacts to the NWRS have also reached enormous proportions.
    In an effort to make the best use of our abilities and resources, 
the Service cooperates with numerous partners, including the Department 
of Agriculture's Wildlife Services, to identify priorities for invasive 
species prevention and control work. As new invasive species 
infestations are identified and others expand, many times we are forced 
to react, rather than be proactive, which prevents us from getting 
ahead of the problems. Although the Service fully realizes the threat 
posed by nutria to the integrity and function of the Chesapeake Bay 
ecosystem, and to Blackwater National Wildlife Refuge, we must 
prioritize nutria management within the context of hundreds of other 
high priority invasive species problems nationwide.
    In light of this broader nationwide invasive species problem and 
the significant ecological degradation caused by nutria, the Service 
joined forces with partners in Federal and State government and the 
private sector in 1997 to identify appropriate methods for controlling 
nutria and restoring degraded marsh habitat. The partnership prepared a 
3-year pilot program proposal, which was subsequently approved by 
Congress, including authorization for the Secretary of the Interior to 
spend up to $2.9 million over 3 years beginning in Fiscal Year 2000 
(Public Law 105-322). The partnership successfully leveraged 
commitments of over $1.5 million in non- Federal funds and services for 
the initiative, raising the total amount of project support available 
to approximately $2.05 million.
    During Fiscal Year 2001, the State of Maryland submitted a grant 
proposal under the Service's Coastal Wetlands Grant program. That 
proposal would have further supported wetlands restoration efforts 
related to the nutria partnership, however, the proposal was not 
submitted within the establish deadline. We encourage the State of 
Maryland to resubmit the proposal.
    In Fiscal Years 2000 and 2001, $500,000 of Service funds were 
earmarked for initiation and implementation of the pilot study in and 
around Blackwater National Wildlife Refuge as authorized by P.L. 105-
322. The Service identified approximately $199,000 from the Partners 
for Fish and Wildlife program and approximately $299,000 from Refuge 
Operations funding to meet our study obligations. In Fiscal Year 2002, 
the Service received an earmark for an additional $550,000 for the 
nutria project through the Partners for Fish and Wildlife program, that 
increased the available funds from that program for the nutria project 
to $749,000. This, plus the Refuge Operation funding, provided a total 
of $1.048 million for 2002. The Service has again identified $498,000--
$199,000 from the Partners for Fish and Wildlife program and $299,000 
from Refuge Operations funding--to meet our study obligations for 
Fiscal Year 2003.
    We are encouraged by H.R. 4044, and other bills introduced in 
Congress, which address invasive species problems. However, we need to 
identify more clearly how a program like that proposed in H.R. 4044 
would fit within the Service's priorities as reflected within the 
President's budget. Additionally, there are other aspects of the bill 
that cause concern, including the need for a new grant program to 
specifically address nutria, the high Federal cost-share, and high 
administrative expenses provision provided in the bill. The Service 
appreciates the Committee's efforts at controlling and eradicating 
invasive species, and we stand ready to work with the Committee toward 
that end.
    The Service plans to continue nutria project funding amounts within 
the priorities identified in the President's budget. The Service is 
also examining additional opportunities to fund the continuation of the 
nutria eradication program in Maryland through partnerships and cost-
share programs currently requested in the President's budget request. 
Programs such as the Cooperative Conservation Initiative and the 
Coastal Program may provide mechanisms to increase the available funds 
for nutria control and marshland restoration, however these programs 
involve competitive processes for project selection and a commitment at 
this time would be premature.
    The Service recognizes the need to continue cooperative efforts to 
eradicate nutria in the Chesapeake Bay region and will continue its 
commitment as a key Federal member of the nutria eradication 
partnership.
    Mr. Chairman, this concludes my prepared statement. I will be 
pleased to respond to any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Short. A question 
on the coastal barriers. The land being removed from protection 
is about 110 acres. The land being added to the program is 
2,015, is what I have here--total land added, 2,471 acres being 
added to the program. Can you tell us how much of the 2,471 is 
upland, and how much of it is water?
    Ms. Short. Yes, sir. It is about evenly split between those 
two categories. I would also mention that we have just very 
recently identified acreage within that amount that we have 
shown on the current draft map to be eliminated from the 
system, which could become protected by the Maryland agency for 
cultural resources. And if that is the case, that would further 
reduce the amount of acreage that is being--
    Mr. Gilchrest. The North Carolina Department of Cultural 
Resources?
    Ms. Short. I am sorry. Excuse me. It is North Carolina, 
yes.
    Mr. Gilchrest. So of the 2,471 acres being added, about 
1,200 of that is upland?
    Ms. Short. The figures I have relative to the revision show 
about 9,800 acres of wetlands and open water, and 9,300 acres 
of upland.
    Mr. Gilchrest. OK. I am just trying to get some idea of the 
balance. What is this, 9,300 acres? What is the 9,300 acres?
    Ms. Short. If you will allow me, I would like to ask Paul 
Souza to explain that acreage.
    Mr. Gilchrest. Sure. Have him come up and sit down. I am 
just trying to get some idea. We are adding. Total land being 
removed from the program is 109 acres.
    Could you give us your name and title?
    Mr. Souza. Yes. My name is Paul Souza. I am the Coastal 
Barriers Coordinator for the U.S. Fish and Wildlife Service.
    The 109 acres that you referenced is the amount of land 
that would be removed, based on the maps that are before you 
today.
    Mr. Gilchrest. Right.
    Mr. Souza. Of that 109 acres, about 65 acres are, we 
recently found, managed by the North Carolina Department of 
Cultural Resources. And in our research and investigation, we 
did not uncover this, because we were working with the 
Department of Natural Resources.
    Mr. Gilchrest. Sixty-five of the 109 being removed are 
managed by the North Carolina Department of Cultural Resources?
    Mr. Souza. That is right.
    Mr. Gilchrest. And what does that mean?
    Mr. Souza. Well, it means that we are happy about that, 
because they are conservation lands. And we are working closely 
with the State to pinpoint the boundaries. And we are very 
hopeful that we can include that 65 acres back in the unit 
before it is formally adopted by Congress.
    Mr. Gilchrest. So of the 109 removed, it is likely that 
only 44 will actually be removed and potentially used for 
development?
    Mr. Souza. Correct. And of that 45 acres, there is some 
development on the ground already. Probably roughly 10 of that 
45 is currently developed. And I estimate that another 10 or 15 
acres is too wet for development to occur. So roughly, we guess 
that about 20 acres of that 45, in the southern part, could be 
developed in the future.
    Mr. Gilchrest. I see. So of the total acreage of land being 
removed, which in the beginning was 109, the likelihood of the 
acreage out of that 109 for development would be somewhere in 
the neighborhood of 20 acres?
    Mr. Souza. I think that is correct.
    Mr. Gilchrest. Twenty acres. Look at that. Very good. OK. 
That doesn't sound too bad. And just of the 2,471 acres that 
are being added to the program, roughly half of that is just an 
estuary?
    Mr. Souza. I would say actually the number that Congressman 
McIntyre referenced is, by and large, developable land, mostly 
owned and managed by the Department of Defense. There is, 
however, as Cathy suggested, probably another equal amount of 
aquatic habitat that would be added to the OPA.
    Mr. Gilchrest. So the 2,471 acres being added is not water?
    Mr. Souza. Correct.
    Mr. Gilchrest. It is just solid land?
    Mr. Souza. Yes. By and large.
    Mr. Gilchrest. And how much of that is managed by the 
Department of Defense?
    Mr. Souza. Two thousand fifteen acres.
    Mr. Gilchrest. OK. Interesting. Well, we will take a look 
at that as we go along, and we will study the maps and see if 
we can, in what we do, protect, restore habitat, and try to do 
the right thing for Mr. McIntyre's constituents.
    Mr. Underwood?
    Mr. Underwood. Just briefly, do you know how many private 
residences were removed from the existing boundaries of the 
OPA?
    Mr. Souza. We do not know exactly the number of lots that 
have been removed. About 2 years ago, we were approached by a 
land owner in the area who brought to our attention the fact 
that there are private lands that are not in holdings in the 
OPA. At that point, we mobilized to try to figure out where the 
real property boundaries are. Rather than look at a lot-by-lot 
basis, we took the approach that we need to get the lines 
right, and that is what we did. So we have the 20-acre estimate 
of developable land potential in that area, but not a lot 
count.
    Mr. Underwood. Now, of the acreage that is coming into the 
OPA, how much of that is privately held, if any?
    Mr. Souza. None.
    Mr. Underwood. None? OK. So just to characterize, I know 
the intent is to make the maps accurate, and they are really 
technical corrections. But would it be fair to characterize 
this legislation as more designed to allay the fears of the 
private residents/owners? Or more to add more conservation 
land?
    Mr. Souza. Well, clearly, this issue was brought to our 
attention because there was a problem. There were private land 
owners who were included in our OPA who were not in holdings 
within a conservation boundary. So first and foremost, the 
interest would be allowing them to be excluded from the OPA, so 
that they could obtain Federal flood insurance.
    Now, our policy is, when we find technical errors like this 
we do our best to research, to find out if any protected lands 
were missed when the maps were first put together. Perhaps 
protected areas have been protected subsequent to that mapping 
process. So we try to get the lines right in the first place, 
and we try to find if there are other lands that could be 
included.
    Mr. Underwood. OK. Thank you for your clarifications, Mr. 
Souza.
    Mr. Gilchrest. Thanks, Mr. Underwood.
    Just one other question on coastal barriers. Do you know 
how many homes were built in the area that was at least thought 
to be in the program, land that was thought to be in the 
program? How many homes do you know were built in that land 
thought to be in the program, that are now going to be taken 
out of the program and eligible for Federal flood insurance?
    Mr. Souza. I do not have a number of the homes. But if you 
would like me to find out for you, I can.
    Mr. Gilchrest. I would. What was your name again?
    Mr. Souza. Paul Souza.
    Mr. Gilchrest. Paul Souza. What is your phone number?
    [Laughter.]
    Mr. Gilchrest. Thank you very much.
    Ms. Short, two things about nutria. One, does the 
Administration support the bill?
    Ms. Short. The Administration supports the goals and 
objectives of the bill, and is very supportive of the efforts 
by this Committee to help us combat invasive species problems. 
In terms of clarification of how the funding for the bill would 
be integrated within the President's budget, its priorities 
would still need to be clarified.
    Mr. Gilchrest. Well, can you tell us what funding levels 
you would support?
    Ms. Short. I am not sure I can answer that, Mr. Chairman, 
without further consideration relative to any modifications you 
might be considering for the bill, or other kinds of activities 
that are supporting nutria work.
    Mr. Gilchrest. You couldn't give us any range of the 
Federal cost share that would likely be supported by the 
Administration?
    Ms. Short. No, I am not aware of what would be supported by 
the Administration, Mr. Chairman.
    Mr. Gilchrest. Can we get that information, so as we move 
the bill toward a vote we can have the assurances that the 
Administration would support that?
    Ms. Short. I will do my best to do so.
    Mr. Gilchrest. I guess I don't need to ask for your phone 
number.
    Ms. Short. I would be happy to give it to you. You probably 
already know it, Mr. Chairman.
    Mr. Gilchrest. Oh, I am sure the staff has it. So if we 
called you next week, could we get some type of range?
    Ms. Short. I will have an answer for you next week.
    Mr. Gilchrest. Or you could give us the name of somebody in 
OMB, and we will call that person.
    Ms. Short. Actually, I like that idea, Mr. Chairman.
    Mr. Gilchrest. Do you like that idea?
    [Laughter.]
    Mr. Gilchrest. Maybe we will do that. All right, Mr. 
Underwood, any further questions?
    Mr. Underwood. Just a general question on H.R. 4044. What 
impact are nutria having on the other eight national wildlife 
refuges on the Delmarva Peninsula?
    Ms. Short. I am aware of the impact on Blackwater National 
Wildlife Refuge. I have visited that refuge several times in 
the past few years, and I have seen for myself the impacts of 
nutria on the marshlands and what is happening there. But I am 
not aware of the full extent of damage or impacts that nutria 
may have on our National Wildlife Refuges on the peninsula. I 
would be happy to get that information for you.
    Mr. Underwood. OK. I would appreciate that. Thank you.
    Mr. Gilchrest. One other question for Mr. Souza, when we 
call. How many houses were there before 1990, and how many 
houses have been built since 1990? Thank you.
    Mr. Souza. Again, I don't know the answer, but I will get 
it for you.
    Mr. Gilchrest. Sure. That is all right.
    Ms. Short, have you ever been to Blackwater Refuge?
    Ms. Short. I have, several times, Mr. Chairman.
    Mr. Gilchrest. Have you tasted nutria?
    [Laughter.]
    Ms. Short. No, sir, I haven't.
    Mr. Gilchrest. You haven't? Well, we will bring some in the 
next time.
    [Laughter.]
    Mr. Gilchrest. Thank you very much, Ms. Short. We 
appreciate your testimony.
    Ms. Short. Thank you.
    Mr. Gilchrest. Panel three is Ms. Edith Thompson, Invasive 
Species Coordinator, Maryland Department of Natural Resources; 
and Mr. Kevin Sullivan, USDA APHIS State Director, Wildlife 
Services.
    Ms. Thompson, Mr. Sullivan, thank you for coming this 
morning.
    Ms. Thompson. Thank you.
    Mr. Gilchrest. We appreciate your cooperation in this. And 
Ms. Thompson, I know you have been an active participant in 
nutria eradication.
    Ms. Thompson. Yes, sir.
    Mr. Gilchrest. And I also know that you have eaten nutria. 
So we certainly appreciate all that the State of Maryland has 
done in this effort. And you may begin first.

  STATEMENT OF EDITH THOMPSON, INVASIVE SPECIES COORDINATOR, 
            MARYLAND DEPARTMENT OF NATURAL RESOURCES

    Ms. Thompson. Thank you, Mr. Chairman. I beg the 
Committee's forgiveness: I have a little bit of a cold. I will 
try to be as clear as possible.
    On behalf of the Maryland Department of Natural Resources, 
and Secretary J. Charles Fox, I thank you for asking us to 
testify before the Subcommittee on the Maryland Nutria Control 
Pilot Project and H.R. 4044, which authorizes the Secretary of 
Interior to establish a program to eradicate nutria and restore 
wetlands in Maryland. We greatly appreciate the support that 
the pilot project has received from Congress in the past few 
years.
    As you know, DNR has been a principal partner in the pilot 
project, along with the U.S. Fish and Wildlife Service; Tudor 
Farms, Incorporated; the University of Maryland, Eastern Shore; 
the Maryland Fish and Wildlife Cooperative Research Unit; and 
we welcome now USDA APHIS.
    We estimate that nutria have damaged thousands of acres of 
state land of brackish marsh on Fishing Bay Wildlife Management 
Area, which is adjacent to Blackwater National Wildlife Refuge 
in Dorchester County, where the species is most concentrated on 
the peninsula. We have found individuals actually from the 
Chesapeake Bay Bridge south to the Virginia line in Maryland. 
They actually are in Bombay Hook, as well.
    Although nutria damage is not the only cause of marsh loss 
in the area, early studies in the pilot project demonstrated 
that nutria cause significant damage to marsh. When feeding, 
nutria remove entire plants, causing the sediment that supports 
the plants to erode away. Continuous conversion of marsh 
habitat to open water in this manner is removing significant 
habitat for commercially important fin fish, shellfish, and 
waterfowl, and decreasing the ability of protected state lands 
as well as Federal lands to support a diversity of native 
plants and animals.
    The continued removal of the three-square bulrush marsh, 
which preferred by nutria, from Dorchester County and from 
surrounding areas could result in a change in the local 
environment, which could in turn prevent the restoration of the 
marsh. To protect the marsh, nutria eradication must be 
conducted aggressively and efficiently, in order to prevent 
resettlement in treated marshes. Damaged marsh must be restored 
immediately, in order to maintain an environment that can 
support marsh plants while nutria are being removed.
    The DNR joined forces with the other partners of the pilot 
project to generate information needed to develop effective 
methods and strategies to reduce nutria population in the 
Chesapeake Bay wetlands to the point where they are unable to 
maintain a sustainable population; and to develop effective 
marsh habitat restoration methods and strategies; and finally, 
to promote public understanding of the importance of preserving 
Maryland's wetlands and the danger that nutria pose to those 
wetlands.
    The pilot project has provided the partnership with data 
helpful to the development of an eradication plan, which is 
being finalized now, and we expect to start work this month. 
Through the live trapping that we have been doing over the past 
few years--tagging certain animals, fitting others with radio 
collars and transmitters, and examining the physiological 
health and reproductive status of others--we have gained a much 
greater understanding of nutria on Maryland's wetlands in the 
lower Eastern Shore.
    The development of marsh habitat restoration methods is 
ongoing, and will continue as the eradication of nutria on the 
lower Eastern Shore gets underway. The U.S. Army Corps of 
Engineers is testing sediment in the laboratory for its ability 
to support marsh plants that have been damaged by nutria, and 
is now testing sediment spraying in Blackwater National 
Wildlife Refuge to determine the use of this technology for 
marsh restoration.
    The pilot project has been very actively promoting public 
awareness of the importance of wetlands and the damage that 
nutria can do to those wetlands. It has been featured on 
national television, including the Discovery Channel, the 
National Geographic Channel, CNN; and local television, 
Maryland Public Television; all the local Washington, D.C., 
Baltimore, Salisbury news programs, several times over the past 
few years; and many times in the newspapers, including the 
``Washington Post,'' the ``Baltimore Sun,'' etcetera.
    The Department has contributed a total of about $236,000 in 
cash and in-kind services to the pilot project since its early 
planning stages in 1999. We are committed to continuing to 
request state funds to support the project through our 
budgetary process, and will work to raise funds for discrete 
needs of the eradication effort, as well as continue to 
contribute staff resources and state equipment.
    Unfortunately, like many state governments around the 
country, our budget opportunities have narrowed as a result of 
the recession and September 11th. And the DNR, like all state 
departments, has been asked to reduce its expenditures.
    Going on to eradication, beyond the pilot program, the 
current objective is to implement a test eradication effort in 
our study area--which is Blackwater National Wildlife Refuge; 
Fishing Bay Wildlife Management Area; and Tudor Farms, 
Incorporated, in Dorchester County--followed by a large-scale 
nutria eradication effort on the entire lower Eastern Shore.
    The goal of this will be to eradicate nutria, or to reduce 
the population to unsustainable levels. The test effort will be 
conducted for 2 years, and the full-scale eradication over the 
following 3 years. We will test perimeter and saturation 
trapping in 40-acre plots in the study area. There are 
approximately 192,870 acres of nutria habitat throughout the 
lower Eastern Shore.
    Each 40-acre plot would be trapped intensively throughout, 
then more broadly in a second sweep, to ensure eradication. 
Trapping would continue along the perimeter, to prevent nutria 
from moving between treated and untreated plots.
    We anticipate the cost of the entire effort at $20 million 
over 5 years, at the average rate of about $18,000 per 180-acre 
plot. Most of the cost consists of trapper salaries and 
benefits, as well as data entry staff, project management, 
equipment, and supplies. Two-thirds of that cost represents the 
initial trapping effort, and one-third, the second sweep.
    We are especially grateful that the pilot project was 
funded at approximately $1 million in Fiscal Year '02. This has 
enabled us to embark on the eradication phase of the project 
ahead of schedule, a phase which will continue for 2 years. 
Each year of this phase will cost at least $1 million.
    Having first-hand experience with this project for over one 
and a half years, serving on the pilot project's management 
team, and through the Department's over 3-year involvement, I 
can attest to the continuing need that this effort has for 
financial support, as well as the bare efficiency with which 
funding is used.
    Finally, DNR is committed to the long-term goals of nutria 
eradication in Maryland and the restoration of marsh that has 
been damaged by nutria. We will continue to dedicate 
management, administrative, and biological staff; request state 
funds; and solicit private funds to ensure that these efforts 
can succeed.
    Exotic/invasive species impact Federal, state, and private 
lands and, by definition, can multiply and move among these 
lands. And cost of control and habitat restoration is such that 
these efforts cannot succeed without strong financial and 
implementation partnerships. We urge Congress to authorize 
appropriations necessary to ensure that this partnership 
remains strong and that prior Federal and state investments can 
contribute to an active effort to eradicate nutria in Maryland. 
Thank you.
    [The prepared statement of Ms. Thompson follows:]

 Statement of Edith R. Thompson, Exotic/Invasive Species, Wildlife and 
       Heritage Service, Maryland Department of Natural Resources

    Mr. Chairman and Members of the Subcommittee:
    On behalf of the Maryland Department of Natural Resources (DNR) and 
Secretary J. Charles Fox, I thank you for asking us to testify before 
the Subcommittee on the Maryland Nutria Control Pilot Project (Pilot 
Project) and H.R. 4044, which authorizes the Secretary of Interior to 
establish a program to eradicate nutria and restore marshlands in 
Maryland. We greatly appreciate the support that Pilot Project has 
received from Congress in recent years.
    As you know, the DNR has been a principle partner in the Pilot 
Project, along with the U.S. Fish and Wildlife Service, Tudor Farms, 
Inc., the University of Maryland Eastern Shore, and the Maryland Fish 
and Wildlife Research Cooperative. We estimate that nutria has damaged 
thousands of acres of brackish marsh on Fishing Bay Wildlife Management 
Area in Dorchester County, Maryland, where the species is most 
concentrated in the state. We have found individuals from the 
Chesapeake Bay Bridge south to the Virginia line and on many of our 
state lands therein. Although nutria damage is not the only cause of 
loss of marsh in the area, early studies in the Pilot Project 
demonstrated that nutria cause significant marsh damage.
    When feeding, nutria remove entire plants, causing the sediment 
supporting the plants to erode away. Continuous conversion of marsh 
habitat to open water in this manner is removing significant habitat 
for commercially important waterfowl, shell and finfish species and 
decreasing the ability of protected state lands to support a diversity 
of native plants and animals. The continued removal of the three-square 
bulrush marsh, preferred by Maryland's nutria, from Dorchester County 
and from surrounding areas could result in a change in the local 
environment, which could in turn prevent the restoration of the marsh. 
To protect the marsh, nutria eradication must be conducted aggressively 
and efficiently in order to prevent resettlement in treated marshes. 
Damaged marsh must be restored immediately in order to maintain an 
environment that can support marsh plants while nutria are being 
removed.
    The DNR joined forces with the other partners in the Pilot Project 
to generate the information needed to: 1) develop effective methods and 
strategies to reduce nutria populations in the Chesapeake Bay wetlands 
to the point where they are unable to maintain a sustainable 
population; 2) develop effective marsh habitat restoration methods and 
strategies; and 3) promote public understanding of the importance of 
preserving Maryland's wetlands and the threat that nutria poses to 
those habitats.
    The Pilot Project has provided the Partnership with data helpful to 
the development of an eradication plan, which is being finalized now 
and is expected to start this month. Through the live trapping that we 
have done for the past few years, tagging certain animals, fitting 
certain animals with radio collars and transmitters, and examining the 
physiological health and reproductive status of others, we have gained 
a much greater understanding of nutria on Maryland's lower Eastern 
Shore. The development of marsh habitat restoration methods is on-going 
and will continue as the eradication of nutria on the lower Eastern 
Shore gets underway. The U.S. Army Corps of Engineers is testing 
sediment in the laboratory for its ability to support the marsh plants 
that have been damaged by nutria and is now testing sediment spraying 
on Blackwater National Wildlife Refuge to determine the use of this 
technology for marsh restoration.
    The Pilot Project has been very actively promoting public awareness 
of the damage that nutria can do to our wetlands and has been featured 
on national television, including the Discovery Channel, the National 
Geographic Channel, and CNN. The Pilot Project has also been a feature 
on local Salisbury, Baltimore, and Washington, D.C. television news 
programs, Maryland Public Television, and local newspapers many times 
over the past three years.
    The DNR has contributed a total of about $236,000 to this Pilot 
Project since its early planning stages in 1999. We are committed to 
continuing to request state funds to support the project through our 
budgetary process and will work to raise funds for discreet needs of 
the eradication effort as well as continue to contribute staff time and 
state equipment. Unfortunately, like many state governments, our budget 
opportunities have narrowed since September 11th and the DNR, like all 
state departments has been asked to reduce its expenditures.
ERADICATION
    Beyond the Pilot Program, the current objective is to implement a 
test eradication effort in our study area: Blackwater National Wildlife 
Refuge, Fishing Bay Wildlife Management Area, and Tudor Farms, Inc. in 
Dorchester County, followed by large-scale nutria eradication effort on 
the lower Eastern Shore. The goal of this will be to eradicate nutria 
or to reduce the population to unsustainable levels. The test effort 
will be conducted for two years and the full scale eradication over the 
following three years. We will test perimeter and saturation trapping 
in 40 acre plots in the study area. There are approximately 192,870 
acres of nutria habitat on the lower Eastern Shore. Each 40-acre plot 
would be trapped intensively throughout and then more broadly in a 
second sweep to ensure eradication. Trapping would continue along the 
perimeter to prevent nutria from moving between treated and untreated 
plots. We anticipate the cost of the entire effort at $20 million at 
the average rate of over $18,000/180-acre plot. Most of the cost 
consists of trapper salaries and benefits, as well as data entry staff, 
project management, equipment and supplies. Two-thirds of that cost 
represents the initial trapping effort and one-third the second sweep.
    We are especially grateful that the Pilot Project was funded at 
approximately $1 million in fiscal year 02. This has enabled us to 
embark on the eradication phase of the Project ahead of schedule, a 
phase which will continue for 2 years. Each year of this phase will 
cost at least $1 million. Having first hand experience with this 
project for over 1 1/2 years, serving on the Pilot Project's Management 
Team, and through the DNR's over 3-year involvement, I can attest to 
the continuing need that this effort has for financial support as well 
as the bare efficiency with which funding is used.
CONCLUSION
    The DNR is committed to the long-term goal of nutria eradication in 
Maryland and the restoration of marsh that has been damaged by nutria. 
We will continue to dedicate management, administrative, and biological 
staff; request state funds; and solicit private funds to ensure that 
these efforts can succeed. Exotic/invasive species impact Federal, 
state and private lands and, by definition, can multiply and move among 
these lands, and cost of control and habitat restoration is such that 
these efforts cannot succeed without strong financial and 
implementation partnerships. We urge Congress to authorize 
appropriations necessary to ensure that this partnership remains strong 
and that prior Federal and state investments can contribute to an 
active effort to eradicate nutria in Maryland.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Ms. Thompson.
    Mr. Sullivan?

    STATEMENT OF KEVIN SULLIVAN, USDA APHIS STATE DIRECTOR, 
                   WILDLIFE SERVICES PROGRAM

    Mr. Sullivan. My name is Kevin Sullivan. I am the State 
Director for Maryland, Delaware, and D.C., with the Wildlife 
Services Program of APHIS. And to answer the Chairman's 
question, I have eaten nutria on numerous occasions. I haven't 
had the pleasure yet to eat the Maryland nutria, but I have had 
it throughout the country.
    Mr. Gilchrest. Do you like nutria?
    Mr. Sullivan. I do.
    Mr. Gilchrest. Wow. I think you are the first person that 
said that.
    [Laughter.]
    Mr. Sullivan. Don't hold that against me.
    Thank you for the opportunity to testify before you and the 
Subcommittee today on H.R. 4044, a bill that, if passed, would 
authorize the Secretary of the U.S. Department of Interior to 
provide assistance to the State of Maryland for the 
implementation program in eradication of nutria and restoring 
marshlands damaged by the invasive species in the Chesapeake 
Bay area.
    While encouraged by H.R. 4044 and other bills introduced in 
the Congress that address invasive species problems in the 
United States, the Administration has concerns with H.R. 4044 
that were previously discussed by the representative from the 
Fish and Wildlife Service, Ms. Cathleen Short.
    As you may know, Wildlife Services is currently engaged 
with the Department of Interior officials and several other 
state and local cooperators in a pilot program to determine if 
nutria eradication is a feasible goal in the Chesapeake Bay. 
Wildlife Services, a part of USDA's Animal and Plant Health 
Inspection Service, is the Federal program charged with 
preventing and reducing conflicts between people and wildlife.
    Wildlife Services works closely with other Federal 
agencies, such as the Department of Interior's Fish and 
Wildlife Service, the lead agency in the nutria pilot program; 
state and local officials; industry groups; university 
researchers; producers; and citizens to help prevent damage or 
minimize damage caused by wildlife species.
    Wildlife Services is called on regularly by cooperators to 
stop wild animals from damaging public property and natural 
ecosystems, threatening human health and safety, or preying 
upon threatened and endangered species. When wildlife damage 
management is necessary, Wildlife Services officials help to 
balance wildlife populations, prevent harmful situations from 
occurring again, and give residents the necessary advice to try 
to reduce that damage or prevent it from occurring again.
    In other important areas, our program helps to protect 
aircraft from bird strikes and collisions with wildlife at 
airports across the country. Wildlife Services is also an 
integral part in the efforts to prevent the brown tree snake, 
another invasive species, a non-native predator of the Islands 
of Guam, from further damaging fauna on the islands, and to 
prevent them from spreading to Hawaii via cargo ships and other 
routes of commerce.
    In all of its work, Wildlife Services is recognized for its 
reliance on sound, environmentally sensitive methods of 
wildlife damage management, and a commitment to effective and 
affordable public service. Wildlife Services prides itself on 
the close cooperative relationships we have developed with our 
many partners in both the public and private ranks.
    The partnership that I would like to discuss with you today 
is the one that we have entered into with the U.S. Fish and 
Wildlife Service and with other state agencies, to address the 
damage associated with nutria on Maryland's Eastern Shore.
    Invasive species are non-indigenous organisms that cause, 
or are likely to cause, harm to the environment, plant health, 
or public health if introduced into the country. Due to the 
significant increase in levels of global commerce and travel, 
the number of pathways and movements for foreign species and 
invasive species to be introduced is increasing.
    The situation puts our country at high risk, from public 
health, to various agricultural industries, to our native 
ecosystems. Estimated economic harm to the United States from 
biological invaders is in the tens of millions of dollars, and 
may exceed $120 billion annually.
    Historically, APHIS works to safeguard American 
agricultural resources and prevent damage to our natural 
ecosystems from the introductions and establishments of those 
invasive species that threaten the health of domestic plants 
and animals. These efforts ensure U.S. agricultural 
productivity, and facilitate safe agricultural trade, to help 
preserve the environment and in many cases protect U.S. public 
citizens.
    In support of APHIS' safeguarding mission, Wildlife 
Services has been called on increasingly to address the damage 
associated with invasive species like nutria that have, or have 
the potential to, overrun natural ecosystems and impact native 
species.
    As we have just heard, nutria are a prolific animal that 
are greatly impacting marshlands in the Chesapeake Bay area. 
Their nesting and foraging habits erode marshland vegetation in 
the Chesapeake Bay watershed, and also affect bird and fish 
populations and other valuable and environmentally sensitive 
species, such as the blue crab.
    In carrying out its mission of protecting ecosystems and 
preserving and enhancing wildlife populations, the U.S. Fish 
and Wildlife Service's Chesapeake Bay field office, in 
conjunction with state and local officials, university 
researchers, and environmental and fisheries groups, is very 
much aware of the threat posed to the Chesapeake Bay by the 
nutria populations.
    Fish and Wildlife Service officials developed in 1997 and 
Congress ultimately approved funding for a 3-year pilot program 
to identify appropriate methods for controlling nutria and 
restoring degraded marsh habitat on the Eastern Shore. While 
personnel constraints prevented Wildlife Services from becoming 
directly involved in the early stages of the pilot project, 
communication on the nutria pilot program continued between the 
U.S. Fish and Wildlife Service and my office in Annapolis, 
Maryland. As the program progressed, U.S. Fish and Wildlife 
Service officials contacted my office regarding Wildlife 
Services' participation in the nutria project.
    At the request of the U.S. Fish and Wildlife Service, I 
prepared a budget for the U.S. Fish and Wildlife Service to 
hire on the necessary employees to conduct these capture, 
tagging, and reporting activities, to assess if a pilot 
eradication project could be implemented.
    U.S. Fish and Wildlife Service officials approved these 
positions, and provided the Wildlife Services office with 
sufficient funds for program activities in the coming year. An 
inter-agency agreement between the Wildlife Services and the 
Fish and Wildlife Service has facilitated this funding transfer 
and outlines Wildlife Services' new responsibilities.
    Mr. Chairman, Wildlife Services officials have the 
education, background, and professional expertise necessary to 
target nutria populations and to evaluate the effectiveness of 
control and eradication efforts. We are continuing to cooperate 
closely with the Fish and Wildlife Service and other involved 
landowners and officials in the pilot program. This 
collaborative approach will assist all parties in the future, 
as we evaluate our efforts, devise nutria management and 
eradication plans, and determine adequate funding for an 
appropriate strategy to combat nutria.
    I am confident that by working together and involving local 
residents and officials and other pertinent groups, we can make 
strides against nutria and help to restore some of the damage 
already caused by this invasive species.
    Again, I thank you, Mr. Chairman, for the opportunity to 
testify before this Subcommittee today. And if you have any 
questions, I will be glad to answer them.
    [The prepared statement of Mr. Sullivan follows:]

Statement of Kevin Sullivan, Maryland State Director, Wildlife Services 
                Program, U.S. Department of Agriculture

    Mr. Chairman, my name is Kevin Sullivan and I am the Director of 
the U.S. Department of Agriculture's (USDA) Wildlife Services program 
for Maryland, Delaware, and the District of Columbia. Thank you for the 
opportunity to testify before you and the Subcommittee today on H.R. 
4044, a bill that, if passed, would authorize the Secretary of the U.S. 
Department of the Interior to provide assistance to the State of 
Maryland for the implementation of a program to eradicate nutria and 
restore marshlands damaged by this invasive species in the Chesapeake 
Bay area. While encouraged by H.R. 4044 and other bills introduced in 
Congress that address invasive species problems in the United States, 
the Administration has concerns with H.R. 4044 that will be discussed 
in the Department of the Interior's statement today. As you may know, 
Wildlife Services is currently engaged with Department of the Interior 
officials and several other local and State cooperators in a pilot 
program to determine if nutria eradication is a feasible goal in the 
Chesapeake Bay area.
    Wildlife Services, a part of USDA's Animal and Plant Health 
Inspection Service (APHIS), is the Federal program charged with 
preventing or reducing conflicts between people and wildlife. Wildlife 
Services works closely with other Federal agencies--such as the 
Department of the Interior's Fish and Wildlife Service, the lead agency 
in the nutria pilot program--State and local officials, industry 
groups, university researchers, producers, and citizens to help 
prevent, minimize, or manage wildlife damage to a variety of different 
resources in the United States.
    Wildlife Services is called on regularly by our cooperators to stop 
wild animals from damaging public property and natural ecosystems, 
threatening human health and safety, or preying upon threatened and 
endangered species. When wildlife damage management is necessary, 
Wildlife Services officials help to balance wildlife populations, 
prevent harmful situations from occurring again, and give residents 
advice about how they can minimize conflicts with wildlife.
    In other important areas, our program helps to protect aircraft 
from birdstrikes and collisions with wildlife at airports across the 
country. Wildlife Services is also an integral part of efforts to 
prevent the brown tree snake, a non-native predator on the island of 
Guam, from further damaging fauna on the island and spreading to Hawaii 
via cargo shipments and other routes of commerce. In all of its work, 
Wildlife Services is recognized for its reliance on sound, 
environmentally sensitive methods of wildlife damage management and 
commitment to effective and affordable public service.
    Wildlife Services prides itself on the close, cooperative 
relationships we have developed with our many partners in both the 
public and private ranks. The partnership that I would like to discuss 
with you today is the one we have entered into with the U.S. Fish and 
Wildlife Service to address the damage associated with nutria 
populations on Maryland's Eastern Shore.
    Invasive species are nonindigenous organisms that cause, or are 
likely to cause, harm to the environment, plant and animal health, or 
public health if introduced into the country. Due to significantly 
increased levels of global commerce and travel, the number of pathways 
for the movement and introduction of foreign, invasive pests and 
diseases into the United States is currently at an all time high. This 
situation puts our country at risk, from public health to various 
agricultural industries to our native ecosystems. Estimated economic 
harm to the United States from biological invaders runs in the tens of 
billions of dollars and may exceed $120 billion annually.
    Historically, APHIS works to safeguard American agricultural 
resources and prevent damage to our natural ecosystems from the 
introduction and establishment of those invasive species that threaten 
the health of domestic plants and animals. These efforts ensure U.S. 
agricultural productivity and facilitate safe agricultural trade, help 
to preserve the environment, and, in many cases, protect U.S. public 
health.
    In support of APHIS' safeguarding mission, Wildlife Services has 
been called on increasingly to address the damage associated with 
invasive species, like nutria, that have, or have the potential to, 
overrun natural ecosystems and impact native species. As we have just 
heard, nutria are prolific animals that are greatly impacting 
marshlands in the Chesapeake Bay area. Their nesting and foraging 
habits erode marsh vegetation in the Chesapeake Bay watershed and also 
affect birds, fish populations, and other valuable--and environmentally 
sensitive--species such as the blue crab.
    In carrying out its mission of protecting ecosystems and preserving 
and enhancing wildlife populations, the U.S. Fish and Wildlife 
Service's Chesapeake Bay field office, in conjunction with State and 
local officials, university researchers, and environmental and 
fisheries groups, has been very much aware of the threat posed to the 
Chesapeake Bay ecosystem by nutria populations. In 1997, Fish and 
Wildlife Services officials developed--and Congress ultimately approved 
funding for--a three year pilot program to identify appropriate methods 
for controlling nutria and restoring degraded marsh habitat on 
Maryland's Eastern Shore. At the time of the pilot program's approval, 
Wildlife Services officials assisted their colleagues at the U.S. Fish 
and Wildlife Service's Chesapeake Bay field office in developing the 
environmental assessment documentation required for the pilot program 
to begin under the National Environmental Policy Act.
    While personnel constraints prevented Wildlife Services from 
becoming directly involved in the early stages of the pilot program, 
communication on the nutria pilot program continued between Fish and 
Wildlife Service and my office in Maryland. As the program progressed, 
U.S. Fish and Wildlife Service officials contacted me regarding 
Wildlife Services' participation in nutria control and eradication 
efforts on Maryland's Eastern Shore.
    At the request of U.S. Fish and Wildlife Service officials, I 
prepared a budget analysis of the staffing requirements necessary for 
Wildlife Services' participation in the pilot program. I determined 
that 13 positions--12 wildlife specialists and 1 wildlife biologist--
would be necessary to carry out the capture, tagging, and reporting 
activities called for in the pilot program. U.S. Fish and Wildlife 
Service officials have approved these positions and provided the 
Wildlife Services office in Maryland with sufficient funds for program 
activities in the coming year. An inter-agency agreement between 
Wildlife Services and the U.S. Fish and Wildlife Service facilitated 
this funding transfer and outlines Wildlife Services' new 
responsibilities as a cooperator in the nutria control pilot program.
    Mr. Chairman, Wildlife Services officials have the education, 
background, and professional expertise necessary to target nutria 
populations and evaluate the effectiveness of control and eradication 
efforts. We are continuing to cooperate closely with the U.S. Fish and 
Wildlife Service and other involved landowners and officials in the 
pilot program. This collaborative approach will assist all of the 
parties in the future as we evaluate our efforts, devise nutria 
management and eradication plans, and determine adequate funding for an 
appropriate strategy to combat nutria. I am confident that by working 
together and involving local residents, officials, and other pertinent 
groups we can make good strides against nutria and help to restore some 
of the damage already caused by this invasive species.
    Thank you again, Mr. Chairman, for the opportunity to testify 
before you and the Subcommittee today. I will now answer any questions 
you or your colleagues may have regarding Wildlife Services' 
involvement in the nutria pilot program in Maryland.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Sullivan. What other animals 
do you deal with in Maryland and Delaware, other than nutria, 
as far as nuisance animals are concerned?
    Mr. Sullivan. Mr. Chairman, that list of species would 
range from moles and voles, to vultures, deer, urban backyard 
wildlife, skunks, raccoons, possums, to the fox--
    Mr. Gilchrest. So the full range. I mean, they may be 
indigenous, or they may be non-indigenous.
    Mr. Sullivan. They may be.
    Mr. Gilchrest. But you deal with those kinds of critters.
    Mr. Sullivan. Just about all mammals and birds.
    Mr. Gilchrest. But do you have a general budget, so a local 
jurisdiction calls up and you assist them? How does that work?
    Mr. Sullivan. The Wildlife Services' budget, there is a 
base Federal budget that my program receives. But by and large, 
it is funded by cooperative dollars, by cooperators requesting 
our assistance. And then it is just a direct reimbursable for 
the work that we conduct.
    Mr. Gilchrest. And you are in Annapolis?
    Mr. Sullivan. Correct.
    Mr. Gilchrest. How long have you been in Annapolis?
    Mr. Sullivan. I have been there a year.
    Mr. Gilchrest. And the APHIS office in Annapolis has been 
there--?
    Mr. Sullivan. In excess of 20 years. I know the gentleman 
that retired before I came to Maryland was there 23 years.
    Mr. Gilchrest. I am just curious how long APHIS in Maryland 
has been working; or when did they first recognize that nutria 
needed to be eradicated?
    Mr. Sullivan. That I couldn't answer for you. I could get 
that answer for you. I know it was a very small staff that was 
there. It was just a state director, an administrative 
assistant at the office. And we provide technical assistance 
via a ``1-800'' number, called ``The Citizens in D.C., 
Maryland, and Delaware.''
    Mr. Gilchrest. Have you been to Blackwater Refuge?
    Mr. Sullivan. I have.
    Mr. Gilchrest. Could you tell me, or Ms. Thompson tell us, 
about how many nutria might still be at Blackwater, or 
basically on the Delmarva Peninsula? Any estimate?
    Ms. Thompson. Well, the only estimate we have is dated from 
Blackwater Wildlife Refuge. And that is at 35,000 to 50,000. It 
is an interesting question. I have been asking other experts: 
Dr. Gosling from England, where they did manage to eradicate 
nutria; and also Gregg Linscombe, who is a nutria biologist in 
Louisiana. And they basically concur with our findings, that 
nutria population changes so dramatically from month to month. 
Their reproductive output and the weather cause great changes 
in their population, from big to small.
    So we are not really comfortable estimating populations. We 
do have that one estimate, that gives you an idea that there 
are tens of thousands, at least, in Dorchester County; and that 
that is where the focus of the population is.
    Mr. Gilchrest. So I guess, if they are in Dorchester 
County, anywhere from 35,000 to 50,000, they have been seen at 
Bombay Hook?
    Ms. Thompson. Yes, apparently.
    Mr. Gilchrest. In Delaware?
    Ms. Thompson. Apparently, they have been seen there.
    Mr. Gilchrest. So they are likely in Caroline, Queen Anne--
    Ms. Thompson. Yes.
    Mr. Gilchrest. --Wicomico?
    Ms. Thompson. They are in every Eastern Shore county--
    Mr. Gilchrest. Kent County?
    Ms. Thompson. --but not in those kinds of numbers.
    Mr. Gilchrest. So they are in every Eastern Shore county?
    Ms. Thompson. Yes. And they are also in the Patuxent, 
Calvert County.
    Mr. Gilchrest. How did they get to Bombay Hook? Did they 
follow the ditches and the streams? I couldn't imagine them, 
you know, crossing the highway, except maybe at 4 in the 
morning when there is no traffic.
    Ms. Thompson. There is apparently some work being done on 
that in Louisiana. There is a model being created, a research 
model being created, to determine why populations appear 
further north from Louisiana; because they seem to be moving up 
the coast--whether it is because they use all their resources 
in their particular area and move on, or whether it is 
territorial. We don't know how territorial they are, in other 
words. So it may be a territorial situation, where young can't 
find a place to stay so they move elsewhere.
    Mr. Gilchrest. Yes.
    Ms. Thompson. We haven't answered that question yet. But 
clearly, they are moving in.
    Mr. Gilchrest. So they are in Cecil County?
    Ms. Thompson. As far as we know.
    Mr. Gilchrest. How would they get across the bay? Can they 
swim across the bay?
    Ms. Thompson. We don't think they are getting across the 
bay. We think that the population in Dorchester County is one 
that was planted there by--We are not really sure by who; but 
whoever was interested in the fur resource back in the early 
part of the 20th century.
    Mr. Gilchrest. But they don't swim across the bay? They get 
over there some other way?
    Ms. Thompson. We don't think so. We think that that 
population is discrete, and related to the one that was 
released there from captivity. Whereas the one over on the 
Western Shore is the continual one from Louisiana.
    Mr. Gilchrest. I see. Do you have any idea how much state 
and local private funds have been allocated to this study phase 
of the pilot project up to this point?
    Ms. Thompson. I know that the Department has given over 
200,000. I would have to get back to you on the exact figures 
that we have gotten from the University of Maryland, Eastern 
Shore; in particular, in Tudor Farms. I think our contribution 
is by far the largest, but I would have to get back to you on 
that.
    Mr. Gilchrest. Is that both actual dollars and in-kind?
    Ms. Thompson. And in-kind. Yes.
    Mr. Gilchrest. I have a couple more questions, but I will 
yield to Mr. Underwood at this time. Thank you.
    Mr. Underwood. Thank you, Mr. Chairman.
    And thank you for your testimony. Ms. Thompson, do you have 
any idea what it costs to restore one acre of wetlands that is 
destroyed by nutria?
    Ms. Thompson. I am afraid we don't, because we don't even 
know yet if we can actually do it. Like I said, we are testing. 
The U.S. Army Corps of Engineers is testing sediment, and they 
just started spraying sediment in Blackwater to see how well 
that will work as a substrate for marsh restoration. They have 
given us a price of $4.5 million to do a host of things, 
including the testing of sediment, the spraying, and doing some 
hydrology studies and so forth across Blackwater alone.
    But I tried to get a per-acre figure from them before the 
hearing, and they weren't really willing to commit to that. 
Just the $4.5 million for a package of preliminary work.
    Mr. Underwood. For the whole refuge?
    Ms. Thompson. Well, right now, for about 20 acres of 
refuge.
    Mr. Underwood. How many acres of wetland have been 
destroyed by nutria at the Blackwater Refuge?
    Ms. Thompson. Over 7,000.
    Mr. Underwood. Over 7,000. And how many are in the process 
of being consumed beyond that?
    Ms. Thompson. We haven't measured beyond that. We would 
like to, as part of our eradication process. Like I said, it is 
difficult to measure nutria populations. So we are starting to 
look at Louisiana's model, which is to measure nutria damage 
and the rate of damage, or the rate of recovery of the marsh 
based on our eradication efforts.
    For instance, in the beginning of this study we did 
``exclosures,'' and those are big fenced areas where the nutria 
can't get in; just to show that nutria cause significant 
damage. Because there is sea-level rise, and salt water 
intrusion, and other things causing marsh damage in that area. 
And within those exclosures, the marsh grew very well. Outside 
those exclosures, it was virtually leveled.
    So we are looking at the possibility of doing those 
exclosures in our new study, eradication study plots, to see 
how well the marsh recovers as we eradicate nutria. That is 
kind of the direction we are going in.
    Mr. Underwood. With the decline of the marshland or the 
wetlands, does the nutria population diminish? I mean, is there 
a point at which their food resources diminish and then they go 
away? Or do they just move to another area?
    Ms. Thompson. They continue to move.
    Mr. Underwood. They just move?
    Ms. Thompson. We believe they continue to move. They'll eat 
anything, from brackish marsh into fresh water marsh; although 
they like brackish marsh the best. And brackish is the 
combination of salt and fresh water. So they have a lot of 
resources to use, and they will just move.
    Mr. Underwood. Other than trapping, is there any other 
kind--and this question is for either one of you--other kind of 
eradication techniques that have been experimented with?
    Mr. Sullivan. A complete set of the tools would include 
trapping on a variety of different traps; shooting; and also, 
the use of EPA-approved toxicants.
    Mr. Underwood. Have the toxicants been used to any great 
extent? And are there other ramifications for their use?
    Ms. Thompson. To my knowledge, we are not planning to use 
them in Maryland. There are other, obviously, ramifications. We 
worry about what we call ``non-target species,'' even with 
trapping. But trapping seems to be able to be more selective in 
what we capture.
    But when we go to this eradication phase, we will be using 
traps; like hold traps and Conabear traps.
    Mr. Underwood. I see. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Sullivan, what is your role as part of APHIS in the 
nutria eradication program?
    Mr. Sullivan. What Wildlife Services has done is enter into 
an inter-agency agreement with the U.S. Fish and Wildlife 
Service and, at the approval of the funding for the project, we 
provided them an estimate and a budget. And what we have done 
is hired on nine specialists to date and one biologist. And we 
would like to see that number--At fully staffed it would be 12 
specialists, 12 trappers to trap the nutria, and one biologist.
    Mr. Gilchrest. So you hired the--
    Mr. Sullivan. I did.
    Mr. Gilchrest. You are hiring the trappers?
    Mr. Sullivan. Yes.
    Mr. Gilchrest. Is all of this fairly coordinated, Ms. 
Thompson, with your efforts?
    Ms. Thompson. Yes. We have a management team that consists 
of the Department, APHIS, Fish and Wildlife, UMES, and the co-
op unit, and the Army Corps of Engineers, actually, too. And we 
are all moving as one unit toward this phase.
    Mr. Gilchrest. I see.
    Ms. Thompson. And we meet regularly.
    Mr. Gilchrest. So you feel that the study phase is now at a 
point where there is some understanding as to the types of 
techniques to use to eradicate the nutria so that there is no 
more need to study? And you have estimated the price tag. I 
guess, Mr. Sullivan, you agree that the $20 million over a 5-
year period is sufficient to eradicate the nutria; see where we 
are in 5 years?
    Mr. Sullivan. Yes, I do.
    Mr. Gilchrest. What is the prognosis?
    Mr. Sullivan. Yes, I agree with that figure.
    Mr. Gilchrest. You think we can eradicate the nutria in 5 
years with $20 million?
    Ms. Thompson. Well, what we are going to do, Mr. Chairman, 
is test. We have a new set of hypotheses based on the set of 
data that we got in the past couple of years in our pilot 
project. And we are going to test those in 2 years in about 
53,000 acres in those three parcels of land, Blackwater, 
Fishing Bay, Tudor. And that is when at that point we will 
determine. The question is: Is it possible to eradicate nutria? 
And it is either ``Yes'' or ``No.''
    Mr. Gilchrest. So in those three areas, which I assume are 
Blackwater and Tudor Farms--
    Ms. Thompson. Yes, and Fishing Bay.
    Mr. Gilchrest. And where?
    Ms. Thompson. And Fishing Bay.
    Mr. Gilchrest. OK. The techniques that are being used are 
what? Trapping? Shooting? You are not going to use the poison, 
I guess, because other wildlife would be destroyed by it?
    Ms. Thompson. Right. And we will shoot them if they are 
above ground, but we don't have that opportunity as much as we 
would like. But I mean, it is easier to do it that way, anyway, 
I should say. But we are going to be doing perimeter trapping 
and saturation trapping. And saturation trapping is setting 
intensive traps throughout this 180-acre area. And we look at 
where the nutria is moving. They make trails. It is not that 
difficult to see. I am sure you have seen them. And we are 
actually going to be trying lures.
    Mr. Gilchrest. You are going to be trying what?
    Ms. Thompson. Lures.
    Mr. Gilchrest. Lures?
    Ms. Thompson. Yes. You know, scent.
    Mr. Gilchrest. Right.
    Ms. Thompson. Yes. We have found that traps where the 
animals have been trapped and have urinated and so on, that has 
apparently attracted more animals to come to that particular 
site over several days. So we are going to try that as a way to 
bring nutria to us, because we think we are going to have to 
treat the last traps.
    Mr. Gilchrest. Now, you are talking about male urine 
attracts females, or female urine attracts males?
    Ms. Thompson. We are going to use female estrus.
    Mr. Gilchrest. OK. And that attracts the males?
    Ms. Thompson. Yes. And then perimeter trapping would be 
trapping around the outside of the polygon. And we are going to 
be using those seasonally, because we have found that nutria 
move a lot more during spring and fall. So we would be 
concentrating on the perimeter trapping during spring and fall. 
And they don't move very much in the very hot and very cold, so 
we would be concentrating on saturation trapping in that 
particular small area.
    That is what we are going to be testing. Those are our 
hypotheses, basically. And if it turns out we feel we can 
eradicate nutria, then we would make recommendations about 
necessary appropriations to do that within this authorization 
for the following 3 years.
    Mr. Gilchrest. OK.
    Ms. Thompson. In the remaining 130,000 acres.
    Mr. Gilchrest. Mr. Sullivan, are there any other states 
anxious for this pilot project to conclude so they can 
implement the procedures?
    Mr. Sullivan. I am not aware of any. I know of several 
states that are having problems with nutria and the damage that 
they cause, but at what level they are involved or anxious to 
get into nutria eradication, I am not sure. But I could find 
out on those other states that have nutria for you.
    Mr. Gilchrest. Thank you.
    Ms. Thompson, there have been seven-some-thousand acres 
that have been lost. There is interest certainly in restoring 
those areas. Is there any consideration to use clean dredged 
material to raise the level of the marsh in Blackwater?
    Ms. Thompson. The Corps right now is using dredge from 
historic river channels. So they would be using it from the 
rivers that run through Blackwater.
    Mr. Gilchrest. So do you see any problem using dredge 
material for wetlands restoration?
    Ms. Thompson. I am not aware of any, of that particular 
kind. I mean, they are using the material that is in the area 
itself. So they are not going out of the area to get dredge 
material; they are using this.
    Mr. Gilchrest. But I mean, if the dredge material comes 
from that area, is there a problem with using dredge material 
from that area for wetlands restoration?
    Ms. Thompson. I am not aware of any.
    Mr. Gilchrest. Will any of that wetland restoration begin 
before the eradication is complete?
    Ms. Thompson. What our plan is, is to start this 180-acre 
plot process. And as we go through the second sweep of those 
areas and make a determination that there are no more nutria in 
that area, then we would start the marsh restoration efforts 
then.
    Mr. Gilchrest. I see.
    Ms. Thompson. So they should be working sort of in tandem, 
you know, one behind the other. Because if we wait, we will 
lose the opportunity to create marsh, because once it is open 
water it is much more difficult.
    Mr. Gilchrest. Is there any value to use dogs to find 
nutria? While you are carrying a .22?
    Ms. Thompson. It is a good thought. I don't know if we have 
tried that.
    Do you know?
    Mr. Sullivan. I don't know if that has been tried. But we 
will look into it, because I know of dogs being used on other 
species for control. We can look into that.
    Mr. Gilchrest. Mr. Underwood suggested brown tree snakes.
    Ms. Thompson. Catching nutria?
    Mr. Underwood. They use the dogs.
    Mr. Gilchrest. To use the dogs to find brown tree snakes.
    Ms. Thompson. Oh.
    Mr. Underwood. They do.
    Mr. Sullivan. Yes.
    Mr. Gilchrest. Oh, they do?
    Mr. Sullivan. Yes, they use trained Jack Russell Terriers 
to locate the brown tree snake.
    Mr. Gilchrest. On Guam?
    Mr. Sullivan. On Guam.
    Mr. Gilchrest. Is that proving successful?
    Mr. Sullivan. Very successful.
    Mr. Gilchrest. Wow. Ms. Thompson, just a couple more 
questions. I think it is my understanding that the Corps of 
Engineers has estimated to restore about 150 acres would be 
somewhere around $4.5 million.
    Ms. Thompson. Right.
    Mr. Gilchrest. Which is roughly about $30,000 an acre.
    Ms. Thompson. Yes. I went back and I said, ``Can you please 
clarify that for me again? Is there a per-acre charge for the 
marsh restoration?'' And they said, ``No.'' And they gave me a 
list of things that they would do for $4.5 million.
    I was looking for it when Mr. Underwood asked me this 
question, so I found it: A thin-layer spraying demonstration 
project for 20 acres; high-resolution elevation data, giving us 
accurate contour lines for Blackwater Refuge and surrounding 
areas; high-spectrum vegetation imagery, to tell what kind of 
communities there are within the marsh and what needs to be 
restored; as much marsh restored as possible, anywhere from 150 
to 440 acres, depending on how much material and/or money we 
can get; this will likely be thin spraying on a larger scale; a 
feasibility report on marsh restoration at Blackwater; 
evaluating the proposed sites and further sites for further 
restoration; at least 5 years of monitoring the success of both 
the demo project and the larger restoration.
    Optional tasks include a sediment hydrological model; 
analysis of the hydrological changes from the road crossings; 
and potential sediment trapping techniques.
    And then assuming we try to go forward even further after 
the construction of the first phase, larger analysis of 
sediment dynamics and mechanisms to collect sediment for 
restoration; nutria control eradication language in the WRDA 
authorization bill, with potential for several thousand acres 
of restoration, making this one of the largest restoration 
projects in the country.
    Mr. Gilchrest. One of the largest wetlands restoration 
projects in the country?
    Ms. Thompson. That is what it says. This is what I got from 
the Corps.
    Mr. Gilchrest. Well, must be right if it is from the Corps 
of Engineers.
    [Laughter.]
    Ms. Thompson. No, I don't want to make any sort of 
estimation of what their intent is, so I wanted to read to you 
what they actually sent me.
    Mr. Gilchrest. Well, I guess if they can restore the 
Everglades, with sugar cane, we can restore Blackwater without 
sugar cane.
    Ms. Thompson. That is probably true.
    Mr. Gilchrest. Who established--is it APHIS?--the type of 
compensation to the trappers? And was there ever a 
consideration in using an incentive-based payment?
    Ms. Thompson. Yes. Yes, there was.
    Mr. Gilchrest. So did Maryland establish the compensation 
in conjunction with USDA, Fish and Wildlife Service?
    Ms. Thompson. Originally, way back when we first started 
talking about this in 1998, we wanted to work with APHIS. We 
talked about incentive-based trapping at that time. And after 
dealing with Dr. Gosling from Great Britain and talking back 
and forth, we collectively decided at that time that we didn't 
want nutria to be worth anything in the State of Maryland; we 
didn't want a worth-per-animal. It is too easy to bring them 
in.
    Mr. Gilchrest. Oh.
    Ms. Thompson. And giving trappers salary ensures that they 
are working continuously toward a goal. And each nutria we have 
to capture, as the population declines it gets harder and 
harder and harder to do it.
    Mr. Gilchrest. Yes.
    Ms. Thompson. So the incentive to do it has to be made 
enormous, you know, to make them catch the final ones.
    Mr. Gilchrest. Sure.
    Ms. Thompson. So we decided to do this on a salary basis.
    Mr. Gilchrest. OK. How big are the traps? How many nutria 
can fit in a trap?
    Ms. Thompson. One.
    Mr. Gilchrest. Just one?
    Mr. Sullivan. Yes. And there are also colony traps, where 
they can swim in and you can catch multiple catches of nutria 
in a single trap. But by and large, the Conabear trap and the 
foothold trap are single-animal-per-trap.
    Mr. Gilchrest. I would like to come down there some time. 
Are they nocturnal, for the most part, nutria?
    Mr. Sullivan. They are, but they are as likely to be seen 
during the day.
    Ms. Thompson. Yes.
    Mr. Sullivan. I know that sounds a little confusing. But 
they are a nocturnal aquatic rodent, but at the population 
levels that they are, you can see them just as readily during 
the day.
    Mr. Gilchrest. What is their life span? How long do they 
live?
    Ms. Thompson. Oh, it varies, but they don't live much 
longer than 5 years.
    Mr. Gilchrest. So 5 years on the outside?
    Ms. Thompson. Yes. They don't live long. Short lives.
    Mr. Gilchrest. Really?
    Ms. Thompson. Depending on the weather, you know. Like this 
winter was so nice that they are all--
    Mr. Gilchrest. There are a lot of them out there now.
    Ms. Thompson. There are a lot out there. They are all 
pregnant.
    Mr. Gilchrest. Wow.
    Ms. Thompson. Yes. The females, that is, yes.
    [Laughter.]
    Mr. Gilchrest. That is interesting.
    Mr. Underwood, any further comments or questions?
    Mr. Underwood. I know both of you have referenced the 
British experience a little bit. Is there anything we can learn 
from them, other than what you have stated already, in terms of 
this, dealing with nutria?
    Ms. Thompson. The biggest lesson that they learned in 
England was not to count their nutria before they were sure 
that they were all gone. Because they assumed at one point that 
they had eradicated nutria, not counting in the factor of 
weather. Nutria are very, very sensitive to weather, and bad 
weather kills nutria.
    So at the time that they thought they had captured all the 
nutria in Great Britain, they had some very bad, severe 
winters. When the weather cleared up, all of a sudden, they had 
nutria again. So that was one of the things that they told us 
to beware of.
    They also gave us a lot of advice about trying to measure 
variables in terms of seasons and reproductive physiology, 
reproductive output. There was concern, and there still is some 
concern, that the reproductive output of these animals would 
increase as the population declines; which we will be 
monitoring. We will continue to monitor that, based on their 
findings. Those are some of the things that they taught us.
    Mr. Underwood. And they also counseled against an 
incentive-based program?
    Ms. Thompson. Yes. Yes, because the cost of the final last 
nutria, you can imagine, would be thousands and thousands of 
dollars.
    Mr. Underwood. Yes.
    Ms. Thompson. It would be very difficult to do it that way.
    Mr. Underwood. OK.
    Ms. Thompson. And you have to continue trapping several 
months when there are no animals being trapped. So therefore, 
there would be no incentive to do that.
    Mr. Underwood. Sounds like a socialist British model to me.
    [Laughter.]
    Ms. Thompson. Seemed to work, though.
    Mr. Underwood. OK. Thank you.
    Mr. Gilchrest. Can a muskrat get in a nutria trap?
    Ms. Thompson. Yes.
    Mr. Sullivan. Yes, they can.
    Mr. Gilchrest. Beaver?
    Mr. Sullivan. Yes. Several non-target animals. But the 
equipment that will be used will be as target-specific as 
possible; so that if non-targets are captured, non-target 
animals can be released.
    Mr. Gilchrest. The trap is set up so the nutria is going to 
be trapped in the trap and he is not going to drown? So if a 
muskrat or a beaver get in there, they are not going to drown?
    Mr. Sullivan. That won't be the case with every trap. There 
are some traps--the Conabear trap, that is a lethal trap. And 
if it captures a muskrat or a nutria, that animal will be 
killed.
    Mr. Gilchrest. Are all the nutria out of Great Britain now? 
As you indicated, it sounds like there are some more left 
there.
    Ms. Thompson. No.
    Mr. Gilchrest. They are out?
    Ms. Thompson. They are saying there are no more.
    Mr. Gilchrest. They don't have any more?
    Ms. Thompson. They did several months of trapping when they 
caught no animals; which is what they advised us to do, as I 
said. So they have been trapping, and there are no animals. So 
that is what they are basing their success on.
    Mr. Gilchrest. Can nutria and beaver live compatibly near 
each other?
    Mr. Sullivan. Yes. Yes. I have done a lot of work with 
beaver and nutria in Mississippi, and to answer a previous 
question, they do live compatibly together. And nutria will and 
have the ability to disperse all throughout fresh water 
systems, as well. Because we see a great deal of that 
throughout far inland areas in the State of Mississippi.
    Mr. Gilchrest. How about muskrat, nutria and muskrat? Can 
they live compatibly with each other?
    Mr. Sullivan. Yes, they do.
    Mr. Gilchrest. But don't the nutria, because of their 
eating habits, so destroy the habitat that muskrats leave? Is 
that true?
    Mr. Sullivan. Correct, yes. Their feeding strategies are 
such that the muskrat isn't hazardous to the marsh because of 
its feeding strategy. It grazes off the top. Whereas the nutria 
eats below, eats the roots and the tubers of the marsh, 
fragments that, and allows it to float away. It destroys the 
marsh.
    Mr. Gilchrest. So where you find nutria, you are not likely 
after a while to find muskrat?
    Mr. Sullivan. Not after this extensive nutria damage, no.
    Mr. Gilchrest. How about beaver? Beaver would leave, too, 
then?
    Mr. Sullivan. The only experience I have had where nutria 
and beaver live in unison is in fresh water systems, not in 
this brackish marsh.
    Mr. Gilchrest. And the beaver stay? Do the beaver stay?
    Mr. Sullivan. Yes, because the damage isn't as extensive in 
a fresh water system. The nutria damage is burrowing into the 
river and stream banks, and they are not destroying the habitat 
of the beaver. And the beaver and the nutria food are entirely 
different.
    Mr. Gilchrest. What was that?
    Mr. Sullivan. The beaver and the nutria food, they are 
eating different resources.
    Mr. Gilchrest. In some cases, beaver will eat, I don't 
know, cattail or some type of grass other than wood, but they 
will eat seeds and things like that?
    Mr. Sullivan. They will, yes.
    Mr. Gilchrest. But the grass that they eat is not the same? 
Well, I guess if the nutria eat the tubers and the roots, would 
they eat the same type of grass, or marsh grass or whatever you 
want to call it, that the beaver would eat?
    Mr. Sullivan. Do you know that?
    Ms. Thompson. I don't know. We could find out. I am not 
sure.
    Mr. Sullivan. We could find out the feeding strategy of 
both beaver and nutria in a marsh environment.
    Mr. Gilchrest. Just curious.
    Ms. Thompson. Sure.
    Mr. Gilchrest. Well, is there anything else, Mr. Underwood?
    Mr. Underwood. We are nutria-ed out.
    Mr. Gilchrest. We are nutria-ed out, says the gentleman 
from Guam.
    Ms. Thompson and Mr. Sullivan, thank you very much for your 
testimony. We appreciate your coming here this morning, and all 
the work and effort you have put into this program.
    Ms. Thompson. Thank you. Thank you for your support.
    Mr. Gilchrest. Thank you very much.
    Mr. Sullivan. Thank you.
    Mr. Gilchrest. Our next panel is Mr. Joseph Satrom, 
Director of Land Protection Programs, Great Plains Regional 
Office, Ducks Unlimited; Mr. John Berry, Executive Director, 
National Fish and Wildlife Foundation; and Mr. Gary Taylor, 
Legislative Director, International Association of Fish and 
Wildlife Agencies. Welcome.

    STATEMENT OF JOSEPH SATROM, DIRECTOR OF LAND PROTECTION 
    PROGRAMS, GREAT PLAINS REGIONAL OFFICE, DUCKS UNLIMITED

    Mr. Satrom. Good morning, Mr. Chairman and Congressman 
Underwood, and members of the Committee. My name is Joe Satrom. 
I am the director of land protection, as you said, in the Great 
Plains Office of Ducks Unlimited. I live in Bismarck, North 
Dakota.
    This is the third time that Ducks Unlimited has testified 
before the House on the reauthorization of the North American 
Wetlands Conservation Act. In the past, as part of our 
testimony we have congratulated Congress on creating a program 
that is achieving marvelous progress in helping to secure a 
habitat base to sustain waterfowl populations despite the 
continuing pressures that we have from both man and nature. You 
deserve commendation again this time. The program is a 
tremendous success story, of which Congress and the American 
people should be extremely proud.
    Since its inception, support for the Act has been a 
bipartisan effort. That continues today. Right now in the 
Congress a letter of support for funding NAWCA is being 
circulated. So far, it has attracted support from more than 210 
House members, with strong representation from both sides of 
the aisle. Since the last reauthorization, the Act has 
continued with its tradition of amazing progress and tangible 
results. There are now over 1,000 NAWCA projects, located in 
nearly every state, as well as in Canada and Mexico.
    Despite this progress, the need for NAWCA continues. Based 
on below-average rain last year and the lack of snowfall this 
winter, it is likely that it will not be a good summer for 
waterfowl production in many of the key areas. Pond counts will 
likely be down, and nesting production will suffer.
    The most important component that drives population 
increases and decreases is Mother Nature. If rain comes at the 
right time across the prairies and the northern Great Plains, 
the duck factories of North America will contain nearly ideal 
conditions for waterfowl to breed and migrate south in the 
fall. When Mother Nature provides moisture, the projects 
created, thanks to NAWCA, fill with water, mitigating possible 
downstream flooding and providing our fall skies with the 
flights of waterfowl that we all are familiar with and 
appreciate.
    The Act continues to work. Over the life of the program, 
$432 million in NAWCA funds have generated $1.2 billion in 
partner funds, to do impressive projects, badly needed 
projects. Despite the appropriations increases we have seen in 
the last few years, there are still 130 projects that were not 
able to be funded last year. These projects would have used $24 
million in additional NAWCA funds, and would have contained 
another $71 million in pledged partner monies.
    In order to respond to that proven interest demonstrated by 
these unfunded projects, we ask that you increase the 
authorization ceiling for fiscal year '03 funding for NAWCA by 
$5 million, to $55 million total; and then increase it 
incrementally by $5 million each of the next four following 
years, up to a total of $75 million in authorized spending in 
Fiscal Year '07. This is a prudent approach to increasing 
funding that will move us beyond our current level of 
accomplishment of our goals, of 38 percent of our goals, which 
is where we stand today.
    The North American Waterfowl Management Plan has set a goal 
of sustaining 100 million ducks in the fall flight. It laid out 
a strategy to achieve this migration goal by providing critical 
landscape habitat for waterfowl to use. Because of the 
migratory nature of the birds the Act was designed to benefit, 
it is important to invest in habitat across the length of the 
continent. The Act requires that a portion of the funds be 
invested in each of the three countries of North America. In 
fact, it requires that 50 to 70 percent of the funds authorized 
in this bill be spent in Canada and Mexico.
    While that has worked well, the highest demand for projects 
and the highest number of non-funded projects have been here in 
the United States. Additionally, for projects within Canada, 
the Act has required that the match for those funds come from 
within the U.S. While the increase in appropriations has been 
beneficial--and it still doesn't meet demand--it has tested the 
ability of U.S. partners to meet this additional requirement of 
providing the match for Canadian projects.
    Therefore, we ask you to amend the ratio in the Act to 
require that the portion of these funds spent outside the U.S. 
change to 25 to 50 percent. This will allow the Wetlands 
Council and the Migratory Bird Conservation Commission, that 
approve the projects, to balance the ability of required 
partner dollars against the related need.
    The NAWCA program has a impressive track record of success. 
We are proud of that success, because we are very experienced 
with this Act, and have been actively and enthusiastically 
supportive since the beginning. We have witnessed its 
accomplishments. The changes we propose are not done lightly, 
however. We believe they are important for the future success 
of NAWCA.
    We thank the bill's sponsor, Chairman Hansen, and the 
Committee, for their past support, and encourage their 
continued enthusiastic commitment. We thank you, Mr. Chairman, 
and the members of the Subcommittee, for inviting us to testify 
today. And we congratulate the Congress again on the tremendous 
success of this program. I would be pleased to answer any 
questions that you have.
    [The prepared statement of Mr. Satrom follows:]

 Statement of Joseph A. Satrom, Director of Land Protection Programs, 
   Great Plains Regional Office, Ducks Unlimited, Inc., on H.R. 3908

    This is the third time Ducks Unlimited has testified before the 
House on the reauthorization of the North American Wetlands 
Conservation Act. In the past as part of our testimony, we have 
congratulated Congress on creating a program that is achieving 
marvelous progress in helping to secure a habitat base to sustain 
waterfowl populations despite the continuing pressures created by man 
and nature. This habitat base is especially important in the periods 
when the primary waterfowl production areas of the continent are drier 
than normal and every piece of habitat becomes precious for sustaining 
birds that breed on the prairies. Unfortunately that may be the case 
with the summer we're heading into. You deserve commendation again, the 
program is a success story of which Congress and the American people 
should be proud.
    Since its inception, support for the Act has been a bipartisan 
effort. That continues today. Right now a letter in support of funding 
for the NAWCA program is being circulated in the House. So far it's 
attracted support from over 185 House members with strong 
representation from both sides of the aisle. Those co-signers include 
more than half of the Resources Committee. This bipartisan effort over 
the years is one of the great conservation success stories in American 
history.
    Since the last reauthorization, the Act has continued with its 
tradition of amazing progress and tangible results. There are now over 
1000 NAWCA projects located in nearly every state as well as Canada and 
Mexico. Despite this progress, the need for NAWCA continues. Based on 
below average rain last year and lack of precipitation this winter, it 
likely will not be a good summer for waterfowl production in the key 
areas. Pond counts will likely be down and nesting production will 
suffer. The most important component that drives population increases 
and decreases is Mother Nature. If rain comes at the right times across 
the prairies and the northern great plains; the ``duck factories'' of 
North America will contain nearly ideal conditions for waterfowl to 
breed and migrate south in the fall. The projects created thanks to 
NAWCA fill with water mitigating possible downstream flooding and then 
fill the fall skies with birds. But it's during dry years like the one 
we think is coming that the North American Wetlands Conservation Act 
perhaps plays its most critical role, since every square foot of wet 
ground is precious then, and having habitat in key places becomes 
essential to sustain the population.
    The Act continues to work. Year after year it is demonstrated that 
the demand is there. Over the life of the program, $432 million in 
NAWCA funds have generated $1.2 billion in partner funds. Despite the 
impressive appropriations increases we've seen in the last few years, 
in the last two years over 130 projects were unable to be funded. They 
could have used $24 million in NAWCA funds and they contained another 
$71 million pledged in partner support. In order to respond to that 
proven interest we ask that you increase the authorization ceiling for 
Fiscal Year 1903 by $5 million to $55 million and then increase it by 
$5 million per year, up to $75 million in Fiscal Year 1907.
    The North American Waterfowl Management Plan set a goal of 
sustaining100 million ducks in the fall flight. It laid out a strategy 
to achieve the migration goal by providing critical landscape habitat 
for the ducks to use. This Act is the primary vehicle for reaching the 
North American Plan's goal. As other interests in the conservation 
world have witnessed the success realized under this Plan, parallel 
plans for other bird species have been devised and are being 
implemented. There have been plans developed to conserve species that 
use wet habitats, like shorebirds, and colonial nesting water birds and 
those species are well served by NAWCA.
    On occasion there has been some confusion about how broad the 
intent NAWCA is to be interpreted. We ask the Committee to make changes 
that would clarify the Wetlands Conservation Act should focus on 
wetland and related habitats. This is especially appropriate since some 
plans and laws have been developed to that serve species whose habitats 
are often of a primarily upland nature, unrelated to wetlands. Those 
initiatives and the related Neotropical Migratory Bird Conservation Act 
serves many birds but their principal habitats are not use wetland 
habitats. Since that Act is now being funded to serve upland habitats, 
we believe references to migratory birds and wildlife in the NAWCA law 
should clarify the intent to focus on needs in wetland and associated 
habitats.
    Because of the migratory nature of the birds the Act was designed 
to benefit, it is important to invest in habitat across the length of 
the continent. Therefore the Act requires that a portion of these funds 
be invested in each of the three countries of North America. In fact it 
requires that 50-70% of the funds authorized in this bill be spent in 
Canada and Mexico. While that has worked well, the highest demand for 
projects and highest number of non-funded projects has always been in 
the U.S. Additionally, for projects within Canada the Act requires that 
the match come from within the U.S. While the increase in 
appropriations has been beneficial and still doesn't meet demand, it 
has tested the ability of U.S. partners to meet the required match for 
Canadian projects. Therefore we ask that you amend the ratio in the Act 
to require that the portion of these funds spent outside the U.S. 
change to 25-50%. This will allow the Wetlands Council and Migratory 
Bird Conservation Commission that approves the projects to balance the 
ability of required partner dollars against the need.
    The NAWCA program has an impressive track record of success. We are 
proud of that success because we are very experienced with this Act 
having been actively supportive since the beginning and witnessing it's 
accomplishments. The changes we propose are not done lightly. We 
believe they are important for future success of the NAWCA program. We 
thank the bill's sponsor, Chairman Hansen and the Committee for their 
support of the program. We thank you Mr. Chairman and members of the 
Subcommittee for inviting us to testify today and we again congratulate 
Congress on the success of this program. We stand ready to answer any 
questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Satrom. We have a 
vote going on. And rather than stop and have everybody wait for 
a long time, because there are three votes, I will ask Mr. 
Underwood to take the Chair.
    And if I don't make it back for the questions, the question 
that I have had that maybe all three of you can answer is, if 
you all agree with the $5 million increase in this year's 
authorization--I guess I would be surprised if you didn't--do 
you all agree with amending the ratio down to 20 to 50 percent, 
instead of where it is right now? And are conservation 
mechanisms employed in Mexico sufficient to ensure a long-term 
conservation?
    Thank you very much, Mr. Satrom, Mr. Berry, and Mr. Taylor. 
And the Chair is now Mr. Underwood.
    Mr. Underwood. [Presiding.] Thank you.
    Mr. Berry?

STATEMENT OF JOHN BERRY, EXECUTIVE DIRECTOR, NATIONAL FISH AND 
                      WILDLIFE FOUNDATION

    Mr. Berry. Thank you, Mr. Underwood. And Mr. Chairman, just 
before Chairman Gilchrest leaves, if I could also extend an 
invitation. Mr. Gilchrest, Paul Tudor Jones, who is on our 
board, who owns the Tudor Farms project that you are talking 
about with the nutria, I know would be honored to host you 
there, if your schedule ever allows.
    Mr. Gilchrest. I would be very happy.
    Mr. Berry. So we will keep in touch on that. That would be 
wonderful.
    Mr. Gilchrest. We had a little conflict about 10 years ago. 
But all was forgiven.
    Mr. Berry. I think it is all working well now.
    Mr. Gilchrest. Thank you.
    Mr. Berry. Thank you, Mr. Chairman. Mr. Underwood, it is an 
honor to be here with you this morning. It is great to be here 
to testify on behalf of this legislation, 3908. Though I am not 
allowed specifically to testify, I don't get involved in 
lobbying or advocacy, I can speak to the substance of the 
legislation and the effectiveness of this legislation. And 
second only to the legislation that created the National Fish 
and Wildlife Foundation, I think this is one of the greatest 
pieces of legislation that Congress has ever enacted. It has 
been an incredible success story.
    I am very honored and pleased to serve on the North 
American Wetlands Conservation Council, which advises the 
Migratory Bird Commission on the expenditure of these funds. 
And I serve on that council with the director of the U.S. Fish 
and Wildlife Service; representatives from the four state fish 
and game agencies that represent the four major migratory bird 
flyways; as well as three non-profit representatives that 
change over the years, but currently represented by Ducks 
Unlimited, the Nature Conservancy, and the Conservation Fund.
    It is an incredible group. And the quality of the projects 
that come in, I can testify to you, are second to none. They 
are outstanding. The match is incredible. The work done with 
them is wonderful. And it has made a significant, positive 
contribution to the protection of wetlands, waterfowl species, 
and waterfowl habitat throughout the United States, Canada, and 
Mexico.
    Since our time is short, you know, I have the written 
testimony which I would give you for the record. And Senator 
Satrom has already explained to you the incredible match, the 
number of projects that have been funded over the years. So 
rather than reiterate that, I would just add two quick points.
    One, I would strongly support the question that the 
Chairman asked about, do you agree with the additional 
authorization? Absolutely. The need is there. There is no 
question that, despite all of the efforts--both this effort, 
all of the state efforts, all of the NGO efforts--we are still 
losing ground on the wetlands issue. And the need is intense.
    As our population increases, as the pressures increase, 
those wetland areas are under enormous stress. And I believe 
that the proposal that Senator Satrom and Ducks Unlimited put 
forward this morning makes great sense, in terms of increasing 
the resources that would be available over the extension of 
this authorization. Because I believe they could be very wisely 
applied through this process.
    Second, and this is something in which I do not represent 
the North American Wetlands Council on this position, but this 
is just my own personal insight in terms of our experience with 
this program. And that is, the program as it is now written is 
limited to Canada and Mexico. And I would really encourage the 
Committee to examine and think about expanding the scope of the 
program to be essentially Latin America, the Caribbean; to 
include that along with Mexico.
    A number of these waterfowl migratory populations don't 
recognize political boundaries. And I really believe that in 
terms of seeking to move the ball forward on all of these 
areas, I don't think we should try to limit ourselves to 
political boundaries, either. And so I think broadening the 
scope to be hemispheric in nature, that would allow the Council 
and the Migratory Bird Commission to really consider projects 
that would best benefit the species, I think is really in the 
interests of the resource.
    So with those two recommendations, Mr. Chairman, I will 
yield back, and be available for questions.
    [The prepared statement of Mr. Berry follows:]

Statement of John Berry, Executive Director, National Fish and Wildlife 
                               Foundation

    Mr. Chairman and Members of the Committee, I am John Berry, 
Executive Director of the National Fish & Wildlife Foundation. Thank 
you for your invitation to speak to the Committee today to offer our 
comments and views on the North American Wetlands Conservation 
Reauthorization Act. This bill, in its essence, proposes to extend 
authorization of the North American Wetlands Conservation Act from 2003 
to 2007, while maintaining the authorized funding level at $50 million. 
I applaud the Committee for considering this reauthorization, for it 
recognizes the critical importance of a piece of legislation that is 
widely considered one of the most effective habitat conservation 
instruments available today for migratory birds and other wildlife. I 
want to stress the importance of the current Act and its impressive 
accomplishments while also offering the Committee an opportunity to 
consider a few critically important concerns facing the conservation of 
birds.
    In my current position, I have the distinct privilege of serving as 
a permanent member of the North American Wetlands Conservation Council, 
an advisory group serving the overall purposes of the Act and 
recommending habitat conservation projects for approval by the 
Migratory Bird Conservation Commission. I must pay due note to the 
other members of the Council--the Director of the Fish & Wildlife 
Service, four Directors of State Fish & Game agencies representing each 
of the four migratory bird flyways, and three senior representatives 
from non-profit charitable organizations actively involved in habitat 
conservation--for it is in the strength of this advisory body that the 
Act enjoys much of its success. My position also entrusts me to carry 
out the purpose of the Foundation, which is centered on conservation 
through effective and diverse partnerships and funding support through 
challenge grants. Our partners include Federal agencies, corporations, 
and Non-government organizations. For many years the Foundation has 
made migratory bird conservation a key priority, and continues to do so 
in diverse ways, including long term support of the North American 
Waterfowl Management Plan, helping stimulate and expand Partners in 
Flight, and working hand-in-glove with the Migratory Bird Conservancy.
    With that said Mr. Chairman, I would like to give you my 
impressions and experiences with the Act and the activities of the 
Council. I recall the history of the Act, passed in 1989, as a bold and 
ambitious commitment made by the Congress largely in response to 
helping to provide essential financial resources for the nascent North 
American Waterfowl Management Plan, amongst other important purposes. 
The Act put a face on the Waterfowl Plan and its international and 
regionally-based Joint Venture partnerships. To this day the Act is 
viewed by the Joint Venture partners as their principal conservation 
tool for implementing critical habitat projects identified by partners, 
and the Council relies much on the opinions of Joint Venture members in 
our deliberations on project selection. We have experienced with the 
Act and the Plan, in just a little more than a decade, a new way of 
doing business, one firmly rooted in collaboration, science, and 
funding commitment. We have also witnessed a piece of legislation that, 
due to the creative design of its authors, has been able to meet many 
of the emerging needs of migratory birds in North America. Meeting 
these needs is illustrated by the wide acceptance of the Act in helping 
to implement not only the Waterfowl Plan but other bird conservation 
plans, including Partners in Flight, North American Waterbird 
Conservation Plan, and U.S. Shorebird Conservation Plan, all of which 
emphasize the importance of habitat conservation. All of these 
partnerships are established with internationally acclaimed 
conservation organizations, National conservation departments, State 
and Provincial fish and game agencies, and numerous watershed and 
community-based groups focused in local areas.
    Mr. Chairman, as one who has oversight of a major conservation 
grants program, I can say without any hesitation that the habitat 
matching grants offered by the Act, or ``NAWCA as it is frequently 
known, are a huge success. Since 1989, the Act has sponsored nearly 
1,000 separate projects, large and small, that in total have involved 
well over 5,000 separate organizations or agencies. And those 
statistics provide a clear glimpse of the true value of this law, the 
protection and restoration of well over eight million acres of wetlands 
and associated uplands in the United States and Canada; and we are 
closing in on nearly a half million acres in Mexico.
    As you may know, Mr. Chairman, NAWCA projects must support long-
term wetlands acquisition, restoration, and/or enhancement and partners 
must minimally match the grant request at a 1-to-1 ratio. This match 
requirement is a critical strength of the Act. For the Act's Standard 
Grants, more than $460 million has been invested through the Act since 
1991, and I understand that total partner contributions have amounted 
to more than $1.3 billion. That is a staggering amount of partner 
support. Additionally, the Council has for many years also hosted a 
Small Grants program which I have personally been very supportive of 
for its ability to generate new partners from diverse backgrounds. My 
experience with this effort as well as Small Grant programs the 
Foundation has, such as our program for the Chesapeake Bay Watershed, 
is that grants can be designed in many ways to meet specific needs. The 
Wetlands Act's grants meet many needs internationally, from expansive 
landscapes to small farm habitats. NAWCA Small Grants are awarded for 
up to $50,000, and several hundred individual partners have been 
involved in over 160 projects across the United States. Since 1996, 
when this initiative was begun, over $6.6 million has been provided by 
the Act, which has leveraged an incredible $50 million in partner 
support. In my relatively short tenure with the Wetlands Council, I can 
only say that I am deeply impressed with the capability of this Act to 
conserve habitat at a general rate of one to three in Federal/non-
Federal dollars. That is a clear financial investment for the Federal 
government. My being able to participate as a Council member in this 
dynamic program, and weighing-in, so-to-speak, on deciding which 
projects are the best of the best, is an invigorating and challenging 
experience, one I sincerely appreciate.
    Mr. Chairman, I am pleased to see recent increases in appropriated 
funding for the Act. Appropriations had been modest throughout the 
1990s, never peaking beyond $15 million. In Fiscal Year 2001, however, 
Congress appropriated a $40 million, and this fiscal year, Fiscal Year 
2002, Congress appropriated $43.5 million, both of which are notable 
successes. Fortunately, for Fiscal Year 2003, the President has 
requested $43.560 million, showing a continued commitment in light of 
some very urgent needs facing the country at this time. With the other 
sources of revenue for the Act, there has been, over the past 2 years 
alone, an annual average of $75 million. That level of funding is 
impressive, and as a Council member have been pleased to have that 
level of funding available for funding projects. It is prudent to 
observe though, that in those two years, after NAWCA awards had been 
granted, there remained over 130 unfunded projects needing $24 million 
in Act support. Most important is the $71 million in committed partner 
support that was not used because there simply was not enough Act 
funding to meet partner commitments.
    Mr. Chairman, as stated in my introduction, I would like now to 
offer brief description of two concerns that flow from my preceding 
remarks that need thoughtful and deliberate consideration by this 
Committee, both of which center, once again, on habitat for birds. The 
concerns are funding and geographic scope. Birds in the United States 
are world travelers and they need quality habitat in non-fragmented 
areas throughout their migratory range, which often spans thousands of 
miles and many countries. More than half of the 800 bird species in 
North America depend on wetlands for survival. Biologists are concerned 
about 200 of these species including 72 that are wetlands-dependent and 
are already on the endangered list. The Act serves to guard against 
further decline, helping to meet critical habitat needs not only in the 
United States but in their Canadian breeding grounds and Mexican 
wintering sites. There remains an immense need for habitat 
conservation, a need that dwarfs available funds provided by the Act. 
Clearly, funding support over the past years through the Act and other 
vehicles has been refreshing and essential. But the challenge is 
daunting. Even with all the attention wetlands have received over the 
past several decades through a vast assortment of regulatory and non-
regulatory mechanisms, they continue to decline. Grassland habitat 
surrounding wetlands are essential to wetland species and upland 
species alike, and they have only recently received due attention for 
protection and restoration. To even begin to meet the needs of these 
hundreds of species of birds that rely in whole or in part on wetlands, 
the funding level of the Act would need to rise by a magnitude or more.
    My second concern, Mr. Chairman, is geographic scope. People orient 
around political boundaries, birds do not. Now more than ever, it is 
appropriate and necessary for migratory bird conservation to reach a 
new level of influence, one that is biologically and geographically 
meaningful. The inability of the Act to serve species that reside in 
the United States in all of their habitats internationally is, in my 
opinion, a serious impediment. This topic has been discussed 
extensively by Council members, and there are many words of caution and 
concern about stretching funding resources too thin. Nevertheless, I am 
convinced that extending the influence of the Act to all of Latin 
America and the Carribean would be a significant and laudable 
achievement, particularly if done with acute sensitivity to the concern 
for funding already expressed. There is an urgent need to work closely 
and diligently with our neighbors throughout the Western Hemisphere to 
advance conservation of habitat in critical areas. Mr. Chairman, nearly 
65 million Americans recreationally enjoy migratory birds in the United 
States alone, nearly one in four citizens. We believe the Act can be 
further strengthened to greatly benefit our migratory bird resource 
throughout their range.
    In summary, Mr. Chairman, NAWCA is unquestionably one of the most 
highly recognized and appreciated conservation tools available in the 
U.S., Canada, and Mexico, and my observations as a Council member 
crystalize on that salient finding. It is a model conservation 
instrument that can continue to meet some extreme challenges, and could 
evolve into an even farther reaching instrument with select 
modifications I discussed. Thank you again Mr. Chairman for this 
opportunity to speak about my experience with the Act. This concludes 
my prepared statement. I will be pleased to respond to any questions 
you may have.
                                 ______
                                 
    Mr. Underwood. Thank you, Mr. Berry.
    Mr. Taylor.

      STATEMENT OF GARY J. TAYLOR, LEGISLATIVE DIRECTOR, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Taylor. Thank you, Mr. Chairman. I am Gary Taylor, 
Legislative Director of the International Association of Fish 
and Wildlife Agencies. And we appreciate the opportunity to 
share with you the perspectives of the association on H.R. 
3908, a bill to reauthorize the North American Wetlands 
Conservation Act.
    As you know, all 50 state fish and wildlife agencies are 
members of the association. And we do sincerely appreciate the 
chance to share with you some of the many successes of this 
truly landmark and landscape-level conservation law.
    The association strongly and enthusiastically supports H.R. 
3908. Wetlands conservation is important to all of us. Many 
scientific studies have shown that coastal and inland wetlands 
are crucial to the health of our environment. Wetlands provide 
for both fish and wildlife conservation needs, and for the 
quality of life for our citizens, in providing such things as 
improving water quality, enhancing water storage, mitigating 
flooding and erosion, and providing wildlife habitat.
    In providing habitat for a diversity of fish, wildlife, and 
plant species, wetlands support numerous recreational and 
commercial activities. The value of wetlands for a wide variety 
of important reasons cannot be understated, nor underestimated.
    Since its enactment in 1989, the Act has been 
extraordinarily successful. It has contributed to the 
protection, restoration, and enhancement of millions of acres 
of wetlands and adjacent buffer areas for the benefit of 
wetland-dependent wildlife and the people who enjoy them.
    Based on a cooperative, voluntary, non-regulatory approach, 
the Act engages the Federal Government in partnerships which 
include local and state agencies, conservation groups, 
businesses, sporting groups, land owners, private citizens, 
ranchers, farmers, and communities, in habitat conservation 
endeavors.
    While I won't repeat for you the successes that have 
already been articulated here about the Act, let me point out 
to you that all of these endeavors have provided significant 
economic benefits, often in rural communities, since migratory 
bird hunters and bird watchers generate almost $21 billion per 
year in secondary economic impact.
    As others mentioned, the North American Waterfowl 
Management Plan, one of the important programs supported by the 
Act, is an effort to rebuild the North American waterfowl 
populations by establishing population objectives and 
protecting key wetland habitat areas. As you are aware, the 
states were one of the original supporters of the plan, and 
subsequently the act.
    Approximately 8.7 million acres have been conserved in 
Canada, the United States, and Mexico, under the plan and the 
Act, through a system of joint ventures. Bringing together 
joint venture area-wide conservation and management for the 
first time, the plan has been used for a model for other 
migratory bird species plans, such as those for shore birds, 
water birds, Partners in Flight, and other related conservation 
programs which are being formulated and delivered on a national 
and international level.
    The North American Bird Conservation Initiative, which is 
co-chaired by the association's president and the director of 
the U.S. Fish and Wildlife Service, seeks to promote and 
deliver all bird conservation programs, primarily through the 
joint venture system.
    The association urges you to ensure reauthorization of the 
Act at its current $50 million level of funding authority for 
an additional 5 years. This would indicate a continuing 
commitment to wetlands conservation, and allow for potential 
growth in appropriations which have recently been increasing. 
Annual requests for Act grants, as others have pointed out, 
continue to exceed available funding.
    Finally, we would also like to recognize and commend the 
Migratory Bird Conservation Commission and the North American 
Wetlands Conservation Council on a job very well done in 
implementing the Act. These bodies are charged with the 
responsibilities of ensuring that projects approved are 
consistent with the Act, and that an appropriate distribution 
and diversity of wetlands ecosystems are secured, restored, and 
enhanced.
    Mr. Chairman, as others have observed, the Act has been 
singularly successful in its contribution to wetlands 
conservation. There are few programs that can boast of their 
success like this one. It is quite simply a unique program 
which is also wholeheartedly endorsed by the state fish and 
wildlife agencies.
    Thank you for the opportunity to share our perspectives 
with you. And I would be pleased to address any questions.**
    [The prepared statement of Mr. Taylor follows:]

   Statement of Gary J. Taylor, Legislative Director, International 
        Association of Fish and Wildlife Agencies, on H.R. 3908

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to share with you the perspectives of the International 
Association of Fish and Wildlife Agencies on HR 3908, a bill to 
reauthorize the North American Wetlands Conservation Act (NAWCA). I am 
Gary Taylor, Legislative Director of the Association. We sincerely 
appreciate the chance to share with you some of the many successes of 
this truly landmark and landscape-level conservation law.
    The Association, founded in 1902, is a quasi-governmental 
organization of public agencies charged with the protection and 
management of North America's fish and wildlife resources. The 
Association, whose government members include the fish and wildlife 
agencies of all fifty states, has been instrumental for nearly a 
century in promoting sound resource management and strengthening 
Federal, state and provincial cooperation in this area.
    The International Association of Fish and Wildlife Agencies 
strongly and enthusiastically supports HR 3908 for a number of reasons. 
Wetlands conservation is important to us all. As you know, while the 
rate of decline has slowed, the fact remains that we continue to lose 
wetlands in North America. Of the estimated original 221 million acres 
of wetlands, there are now about 5.1 million acres of saltwater 
wetlands remaining and about 95.8 million acres of freshwater wetlands. 
Many scientific studies have shown that coastal and inland wetlands are 
crucial to the health of our environment. The loss of wetlands impacts 
both human and conservation values: for example, water quality, water 
storage, flooding, erosion and wildlife habitat. Wetlands provide 
habitat for a diversity of fish, wildlife and plant species, which in 
turn support numerous recreational and commercial activities. The value 
of wetlands for a wide variety of important reasons cannot be 
understated or underestimated.
    Since its enactment in 1989, the North American Wetlands 
Conservation Act has been extraordinary successful. It has contributed 
to the protection, restoration and enhancement of millions of acres of 
wetlands and adjacent (buffer) areas for the benefit of wetland 
dependent wildlife and the people who enjoy them.
    The Association enthusiastically supports HR 3908, and the funding 
authorization level of $50 million for each of Fiscal Years 2003 
through 2007. We appreciate the support of Chairman Hansen for 
introducing HR 3908, and yourself for scheduling this reauthorization 
hearing. We truly believe that this is an excellent example of the 
application of an ecosystem or landscape perspective management 
approach to conservation of our natural resources.
    Based on a cooperative, voluntary, non-regulatory approach NAWCA 
engages the Federal Government in partnerships which include local and 
state agencies, conservation groups, businesses, sporting groups, 
landowners, private citizens, ranchers, farmers and communities, to 
name a few. Within the United States, since 1991 over $462 million in 
Act funds have been matched by over $1.3 billion from partners. The 
return on the Federal investment under this program has been remarkable 
as demonstrated by the fact that projects funded under NAWCA have been 
matched by over 3 to 1 by partner contributions. In the United States, 
630 projects have been funded, at least one in every state. This has 
provided significant economic benefits, often in rural communities, 
since migratory bird hunters and bird watchers generate almost $21 
billion per year in economic impact. This exemplary program offers 
outstanding returns on the Federal investment in wetlands ecosystem 
conservation. Since 1991 over 1,500 partners have been involved in Act 
supported projects.
    The North American Waterfowl Management Plan (NAWMP), one of the 
important programs supported by the NAWCA, is an effort to rebuild 
North American waterfowl populations by establishing population 
objectives and protecting key wetland habitat areas. As you are aware, 
the States were one of the original supporters of the NAWMP and 
subsequently NAWCA. Since migratory waterfowl are a shared 
international resource, Federal, state, provincial and private 
organizations are cooperating internationally to fund and implement 
wetland conservation projects. Approximately 8.7 million acres have 
been conserved in Canada, the United States and Mexico. The NAWMP has 
united different economic sectors, for example, forestry, agriculture 
and wildlife conservationists in an unprecedented degree of trust and 
cooperation.
    Bringing together joint venture area wide conservation and 
management for the first time, the NAWMP has been used as a model for 
other migratory bird and species plans such as those for shorebirds, 
waterbirds, Partners In Flight and other related conservation programs 
which are being formulated and delivered on a national and 
international level. The North American Bird Conservation Initiative, 
co-chaired by the Association's president and the Director of the US 
Fish and Wildlife Service, seeks to promote and deliver all bird 
conservation programs primarily through the joint venture system. As 
mandated by the Act, the NAWMP is currently being updated by the Plan 
partners for 2003 and its continued success depends in large part on 
the funding which NAWCA provides.
    A number of wetland dependent species, including shorebirds, 
neotropical migrants, wading birds, fish and shellfish, reptiles, 
amphibians and threatened and endangered species have also benefitted 
from the North American Wetlands Conservation Act and North American 
Waterfowl Management Plan.
    Progress has been made in wetland conservation under NAWCA but we 
must increase our efforts to ensure that adequate habitat is available 
for waterfowl and other important fish and wildlife species during the 
next drought cycle which may be upon us once more. All indicators are 
pointing in that direction: little water storage from the Fall, a warm 
Winter with little precipitation and a dry, warm Spring. NAWCA/NAWMP 
projects may be the only refuge for those species and could well ensure 
their survival during a period of drought.
    In summary, wetland restoration, protection and conservation 
provides an important and diverse array of long-term environmental, 
social and economic benefits to the citizens of the United States. Let 
us not lose the momentum we have now gained with our willing 
conservation partners.
    The Association urges you to ensure the reauthorization of NAWCA at 
its current $50 million level of funding authority. This would indicate 
a continuing commitment to wetlands conservation and allow for 
potential growth in appropriations which have recently been increasing. 
Annual requests for NAWCA grants continue to exceed available funding. 
If funding is reduced for NAWCA it will impact negatively on a number 
of sectors including the economy and state fish and wildlife programs.
    The International also supports authorization for a period of five 
years. The original 1989 version of the Act and its reauthorization in 
1994 retained a 5-year time frame. An authorization period of 5 years 
would also be in keeping with updates to the NAWMP.
    I also want to recognize and commend the Migratory Bird 
Conservation Commission and the North American Wetlands Conservation 
Council on a job very well done. These bodies are charged with the 
responsibilities of ensuring that projects approved are consistent with 
the Act and that an appropriate distribution and diversity of wetland 
ecosystems are secured, restored and enhanced. By their very nature 
wetland ecosystems are dynamic and extremely diverse across landscapes. 
So, too, must be their management. The Act provides the necessary 
domestic and international flexibility to ensure that the most 
appropriate wetland ecosystem management options are available. To be 
overly prescriptive would minimize the Act's effectiveness.
    Mr. Chairman, the North American Wetlands Conservation Act has been 
singularly successful in its contribution to wetlands conservation. 
There are few programs that can boast of their success like this one. 
It is a unique program, which is wholeheartedly endorsed by the state 
fish and wildlife agencies.
    Thank you for the opportunity to share our perspectives with you, 
and I would be happy to address any questions you might have.
                                 ______
                                 
    Mr. Underwood. Well, thank you for all of your testimonies. 
And of course, they appear to be all in strong support of this 
important piece of legislation. And I appreciate the comments 
made about the value of this approach; at the same time, 
understanding that perhaps we are not preserving as much 
wetlands, even under this legislation, as we conceivably could.
    Just to make sure that we address some of the Chairman's 
concerns, the Chairman raised a couple of concerns that I want 
perhaps all of you to respond to. One is the general state of 
conservation in Mexico, and just to enlighten the Committee 
about that; and also, the issue of the ratio of expenditures in 
Canada, as opposed to other areas.
    Mr. Satrom. Well, thank you, Mr. Chairman. Ducks Unlimited 
has programs in both Canada and Mexico. And we are in 
communication with them. I am not prepared to talk about the 
infrastructure of Mexico specifically, as much as to say that 
it is certainly an important program for our organization. And 
we believe that it can be grown, and that this adjustment in 
the distribution guideline or ratio is an important recognition 
that with our problems in this country, in our minds, there is 
a window of opportunity and also a real threat, a continuing 
threat, to wetlands. So we favor that distribution.
    Similarly, we are providing the match for these monies. And 
we believe that by incrementally growing the amount of money 
authorized, we will continue to be able to grow both Canada's 
and Mexico's, and support what is that priority of meeting U.S. 
needs.
    I think, last, I want to just say from that my background 
in public life, from years ago, really NAWCA has demonstrated 
its true uniqueness. At the state level we looked for ways to 
find partnerships across state borders, and again across 
international borders--North Dakota shares a border with 
Canada. This program is unique, I think, in that it allows us 
to do that, without the complications of multi-state agreements 
and international agreements. And I would say that from that 
standpoint, we have the ability to, I think, even be more 
creative than perhaps was envisioned when it started. Thank 
you.
    Mr. Underwood. Very good.
    Mr. Berry?
    Mr. Berry. Thank you, Mr. Chairman. On your first question 
about Mexico, on the council, I have now been on the council 
for a year and a half, and in just seeing and reviewing the 
proposals that have started to come in from Mexico recently--
and I believe my council members would agree with me on this--
they have gotten better and better.
    Originally, there was not much infrastructure, there was 
not much organization on the ground, and it was a slow start. I 
think they have significantly improved in recent years. The 
North American Wetlands Council, in fact, in recognition of 
that, we are going to be going down in December and having our 
December meeting in Mexico, so that we can work with a number 
of the president's new councils. There is strong interest in 
Mexico. And I think that that program has only positive things 
in front of it. In other words, my hope is that it is going to 
get brighter and brighter.
    On the second issue on the ratio, and it is not to disagree 
with the position that Ducks Unlimited and the center has 
advanced, but I think what I would recommend to you is a little 
bit broader, and more flexibility.
    Right now, I mean, the current statute provides 50 percent 
United States, 45 for Canada, 5 percent for Mexico. I think, 
rather than spelling out the formula, you know, I think I 
endorse the notion of going with the flexible approach. But 
rather than maybe 25-50, what I think I would like to see is 
maximum flexibility for the advisory council and for the 
Migratory Bird Commission to have. And I think the way you do 
that is maybe, rather than 25-50, a 30-70 type of thing, that 
gives you a range.
    If we had a great year and there was lots of money, then 
you would end up with being able to do more than you otherwise 
might. But that may not always be the case. There might be a 
down year with appropriations. And I think providing for that 
notion, that would give the council the flexibility to respond 
to both up years and down years; and sort of having, you know, 
a 30 to 70 percent sliding scale; maybe with requiring the 
advisory council and the Migratory Bird Commission to report 
back regularly so that Congress could monitor how those funds 
were being expended. I think that would be in the best 
interests of the resource.
    Now, we have not discussed this on the advisory council 
yet, a change in the ratio. I don't believe Canada or Mexico 
have taken a position on this yet officially. I know it is 
under discussion. So the comments that I am making here are 
really just mine, as my best advice to you from the National 
Fish and Wildlife Foundation, and not as a formal 
recommendation from the North American Wetlands Council.
    But I think that flexibility is one that would serve both 
the Congress, the council, and the Migratory Bird Commission 
well.
    Mr. Underwood. Very good. Thank you for that suggestion.
    Mr. Taylor?
    Mr. Taylor. Yes, sir, Mr. Chairman. On the question of 
Mexico, quite frankly, we have not seen enough projects from 
there to have an informed assessment yet of the improvement in 
their quality. I would hope the observations of my colleagues 
that suggest that they are improving and that they will get 
better can be borne out. You might find some better information 
coming from the Fish and Wildlife Services' Office of North 
American Wetlands Conservation Management, that administers and 
oversees this. So that might be an appropriate place to direct 
that question.
    We can certainly support the proposed incremental increase 
in the authorization over the 5 years of the life of the bill. 
On the question of an adjustment to the range in the percentage 
of money going to Canada and Mexico, quite frankly, while we 
believe this warrants further consideration and discussion, we 
have not had time to assess it on either its needs for the 
adjustment or its merits; and nor have we had time to discuss 
this with the leadership in the state fish and wildlife 
agencies, to assess the particular validity of this 
recommendation.
    I think that can be done, and should be done, within both 
the conservation community and with the governments of Canada 
and Mexico, while the reauthorization process is occurring. But 
we don't have a position on it at this time.
    Mr. Gilchrest. [Presiding.] Go ahead, Mr. Berry.
    Mr. Berry. If I could, Mr. Chairman, another reason I think 
that 30-70 is good is I think it also would allow you to pick 
the best project from the best place in that year. And it may 
be in 1 year that we have better proposals from Canada and 
Mexico than we would in the U.S., and so it would make more 
sense to fund those better projects that year. And in another 
year, you might have more, conversely, in the United States, 
and you would want to fund those. And so I think that range 
would allow you to do that.
    I think also, by having a 30-70, as opposed to a 25-50, 
under the 25-50 formula, Canada and Mexico only see a down side 
in that. I mean, they can't get any better than what they have 
got now, and they could get worse. And under a 30-70--
    Mr. Gilchrest. More incentive.
    Mr. Berry. --there may be an up year and there may be a 
down year, but it would be based on the quality of the projects 
in front of the council and the commission. So that is why I 
think that 30-70 might make some more sense.
    Mr. Underwood. Well, Mr. Berry, you have expressed two 
ideas which I know are going to invite comment: this flexible 
ratio, and the expansion beyond into the Caribbean and the rest 
of Latin America.
    Mr. Satrom?
    Mr. Satrom. Yes. Mr. Chairman, thank you. Canada has 
received $165 million since the inception of Federal NAWCA 
dollars, not including the partnership dollars. That indicates 
a major funding stream.
    And we certainly are committed. Our organization only 
raised money for the purposes of sending it to Canada until 
1984, so we certainly want to be supportive programmatically of 
what is appropriate. At the same time, we see the need to 
really address this diminishing wetland base and the need for 
more programs in the U.S.
    Mr. Underwood. What about the idea of expanding it to the 
Caribbean and the rest of Latin America? Do you have any 
reaction to that, Mr. Satrom and Mr. Taylor?
    Mr. Satrom. Thank you, Mr. Chairman. We want to compliment 
the Congress on passing the Tropical Migratory Bird Act. We 
think that is a beginning and deals with many of the issues of 
Central America, and want to see the funding levels there 
address these issues. We think the focus on Canada and the U.S. 
are appropriate at this time.
    Mr. Underwood. Mr. Taylor?
    Mr. Taylor. Mr. Chairman, I think in the context of the 
remarks I made about looking at the protocol created under the 
North American, to begin to assess how we are going to deliver 
conservation initiatives for all birds, we need to continue to 
look at whether the North American Act, along with the Neo-
Tropical Migratory Bird Conservation Act, or yet maybe even 
additional enabling legislation, would be the most appropriate 
in order to provide a delivery mechanism for conservation 
objectives outside of either the geographic scope or the 
species or habitat constraints of those two laws.
    So I mean, we are not prepared to give a thumbs-up or a 
thumbs-down on the expansion of the North American Act right 
now to the Caribbean. But it is, again, a consideration I think 
that the conservation community is engaged in deliberations 
over in what are the appropriate mechanisms to provide for 
conservation needs for habitats and species in those 
ecosystems.
    Mr. Gilchrest. Mr. Berry?
    Mr. Berry. Mr. Chairman, I sure appreciate your being so 
generous with the time.
    I would want to make very clear that when I ask for this 
expansion, I clearly would support and would continue to 
support on the Wetlands Council the strong prioritization for 
Canada and Mexico. But I guess my point is, there are some 
species that don't stop at those boundaries. Green-winged Teal 
are an example, that winter in Central America.
    And it just seems to me we ought to keep open the option of 
supporting waterfowl in their habitats wherever they are. In 
other words, I am not talking about specific ratios for the 
Caribbean, or specific for LAC; but it would be very nice to 
have that option when those good projects come along, to have 
the flexibility to be able to consider them.
    Right now we are structured such that we have to stop at 
that boundary. And I really think, clearly, both I and, I am 
sure, my council members, will continue a strong priority and 
the central focus on Canada and Mexico. Don't get me wrong on 
that. But I just think it would really be an added benefit for 
the council to be able to consider outside of those boundaries, 
if it was a good project.
    Mr. Underwood. [Presiding.] Well, thank you for that 
clarification. I would hate to think of the controversy that we 
will generate by taking some NAWCA dollars down into Cuba.
    [Laughter.]
    Mr. Underwood. Now, then we are talking about real 
political boundaries.
    Mr. Berry. Yes.
    Mr. Underwood. Well, thank you for your testimony this 
morning. And certainly all of these ideas will be considered in 
the record. Thank you very much.
    Mr. Satrom. Thank you, Mr. Chairman.
    Mr. Berry. Thank you.
    Mr. Underwood. The meeting is adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]

    [A statement submitted for the record by Perry Plumart, 
Director of Government Relations, Audubon Society, on H.R. 4044 
follows:]

 Statement of Perry Plumart, Director of Government Relations, Audubon 
                         Society, on H.R. 4044

    On behalf of Audubon's more than one million members and 
supporters, I urge the Committee on Resources to support Congressman 
Wayne Gilchrest's bill, H.R. 4044, legislation to eradicate an invasive 
species called nutria that is damaging and destroying some of 
Maryland's most precious and important wetland ecosystems. ``Invasive 
species'' is among the most polite terms one could use to describe the 
nutria, a 30-pound South American rodent with long hairless tail and a 
pair of grotesque orange teeth. A quick scan of news articles on the 
species reveals colorful descriptions of the rodents ranging from 
``vile little beasts'' to ``big rats'' to ``fur cockroaches.'' If they 
have found their way into marshlands, the best word to describe them is 
this: evil.
    Nutria devastate marsh by digging underneath and overturning marsh 
plants to feed on their roots. Much of the marsh rests on a layer of 
fluid mud, which is washed away easily by tidal currents. The 
cumulative effect of nutria damage and rising sea level is a rapid 
conversion of emergent marsh to open water, which destroys the area's 
value as habitat for birds and other wildlife.
    Due primarily to the impact of invasive nutria, 7,000 of the 10,000 
acres of marsh within Blackwater National Wildlife Refuge in Maryland 
have been lost. The refuge continues to lose between 500 and 1,000 
acres of marsh each year to nutria damage.
    Audubon is particularly concerned about the fate of the Black Rail, 
a small bird that is a secretive inhabitant of salt and brackish 
marshes, wet meadows, and the margins of freshwater wetlands. Dredging 
and filling of wetlands in Delaware, Maryland and New Jersey has 
severely reduced the amount and quality of habitat available for Black 
Rails. Due to these increasing threats to its habitat and a resulting 
downward population trend, the Black Rail is listed on Audubon's 
WatchList of birds that could be headed for extinction. As marshes are 
lost on Blackwater Refuge, some of the few remaining quality habitat 
areas available for Black Rails are being lost as well.
    H.R. 4044 would authorize $20 million over the next five years that 
would be provided as grants by the Secretary of the Interior to the 
State of Maryland for programs to control and eradicate invasive 
nutria. To address the serious threat that invasive nutria pose to 
Blackwater National Wildlife Refuge and the birds and wildlife, such as 
the Black Rail, that it was established to protect, Audubon urges the 
Committee on Resources to support H.R. 4044.
    Thank you, Mr. Chairman, for the opportunity to present our views 
on this important legislation.

                                   - 

</pre></body></html>
